<html>
<title> - MISMANAGEMENT OF CONTRACTS AT ARLINGTON NATIONAL CEMETERY</title>
<body><pre>[Senate Hearing 111-1008]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 111-1008
 
       MISMANAGEMENT OF CONTRACTS AT ARLINGTON NATIONAL CEMETERY

=======================================================================

                                HEARING

                               before the

              AD HOC SUBCOMMITTEE ON CONTRACTING OVERSIGHT

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 29, 2010

                               __________

                   Available via http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
58-406                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="91f6e1fed1f2e4e2e5f9f4fde1bff2fefcbf">[email&#160;protected]</a>  


        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK PRYOR, Arkansas                 JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
CLAIRE McCASKILL, Missouri           JOHN ENSIGN, Nevada
JON TESTER, Montana                  LINDSEY GRAHAM, South Carolina
ROLAND W. BURRIS, Illinois
EDWARD E. KAUFMAN, Delaware

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk
            Joyce Ward, Publications Clerk and GPO Detailee


              AD HOC SUBCOMMITTEE ON CONTRACTING OVERSIGHT

                       CLAIRE McCASKILL, Chairman
CARL LEVIN, Michigan                 SCOTT P. BROWN, Massachusetts
THOMAS R. CARPER, Delaware           SUSAN M. COLLINS, Maine
MARK L. PRYOR, Arkansas              TOM COBURN, Oklahoma
JON TESTER, Montana                  JOHN McCAIN, Arizona
EDWARD E. KAUFMAN, Delaware          LINDSEY GRAHAM, South Carolina
                     Margaret Daum, Staff Director
                Molly Wilkinson, Minority Staff Director
                       Kelsey Stroud, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator McCaskill............................................     1
    Senator Brown................................................     3
    Senator Collins..............................................     5
    Senator Tester...............................................     6
Prepared statements:
    Senator McCaskill............................................    55
    Senator Brown................................................    59
    Senator Collins..............................................    62

                               WITNESSES
                        Thursday, July 29, 2010

John C. Metzler, Jr., Former Superintendent, Arlington National 
  Cemetery.......................................................     7
Thurman Higginbotham, Former Deputy Superintendent, Arlington 
  National Cemetery..............................................     9
Edward M. Harrington, Deputy Assistant Secretary of the Army 
  (Procurement), Office of the Assistant Secretary of the Army 
  (Acquisition, Logistics and Technology)........................    35
Claudia L. Tornblom, Deputy Assistant Secretary of the Army 
  (Management and Budget), Office of the Assistant Secretary of 
  the Army (Civil Works).........................................    37
Kathryn A. Condon, Executive Director, Army National Cemeteries 
  Program, U.S. Army.............................................    38

                     Alphabetical List of Witnesses

Condon, Kathryn:
    Testimony....................................................    38
    Prepared statement...........................................    86
Harrington, Edward M.:
    Testimony....................................................    35
    Prepared statement...........................................    67
Higginbotham, Thurman:
    Testimony....................................................     9
Metzler, John C., Jr.:
    Testimony....................................................     7
    Prepared statement...........................................    65
Tornblom, Claudia:
    Testimony....................................................    37
    Prepared statement...........................................    79

                                APPENDIX

Additional prepared statements submitted for the Record by:
    Clarence Hill, National Commander, The American Legion.......    92
    Military Officers Association of America (MOAA)..............    97
    Rick Jones, NAUS Legislative Director, The National 
      Association for Uniformed Services.........................   102
    Reserve Officers Association (ROA)...........................   106
    Joseph E. Davis, Director of Public Affairs, Veterans of 
      Foreign Wars of the United States..........................   110
    The Retired Enlisted Association.............................   112
    Memorandum referenced by Senator McCaskill...................   116


                     MISMANAGEMENT OF CONTRACTS AT
                      ARLINGTON NATIONAL CEMETERY

                              ----------                              


                        THURSDAY, JULY 29, 2010

                                   U.S. Senate,    
          Ad Hoc Subcommittee on Contracting Oversight,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:06 a.m., in 
room 342, Dirksen Senate Office Building, Hon. Claire 
McCaskill, Chairman of the Subcommittee, presiding.
    Present: Senators McCaskill, Carper, Tester, Brown, and 
Collins (ex officio).

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. This hearing will now come to order. 
This is a hearing on Arlington National Cemetery and the 
problems that we have at Arlington National Cemetery.
    Arlington National Cemetery is the Nation's most sacred 
burial ground for veterans and their families, a national 
shrine, and an emblem of the courage and sacrifice of so many 
throughout our Nation's history. Over the last year, I have 
learned of shocking stories about Arlington--bodies 
accidentally buried in the same graves, unmarked and mismarked 
graves, urns of cremated remains being found where they 
shouldn't be, the heartbreaking tragedy of families who cannot 
trust the Cemetery to tell them where their loved ones are 
buried.
    In June, the U.S. Army Inspector General released a report 
finding major flaws in the operation of Arlington National 
Cemetery. The Army Inspector General found hundreds of mistakes 
associated with graves and substantiated many of the reports 
that had previously appeared in the media. The Army Inspector 
General found that the failure to implement an effective 
automated system to manage burials at the Cemetery contributed 
to these mistakes. The Army Inspector General also found that 
the contracts awarded to acquire components of the proposed 
system for the Cemetery failed to comply with applicable 
Federal, Defense, and Army regulations.
    Senator Brown and I called today's hearings to examine how 
contract mismanagement at Arlington National Cemetery resulted 
in this scandal. My staff has prepared a memorandum\1\ 
summarizing what we have learned from our investigation. I ask 
for unanimous consent that the memo and the documents it cites 
be made part of the hearing record. Without objection, those 
will be entered into the record.
---------------------------------------------------------------------------
    \1\ The memorandum referenced by Senator McCaskill appears in the 
appendix on page 116.
---------------------------------------------------------------------------
    More than 10 years ago, the Army began the development of a 
new system to automate the management of burial operations at 
Arlington National Cemetery. From the beginning, the 
acquisition process was plagued with problems.
    One problem was that the Cemetery and Army officials 
decided to create a new system instead of using or modifying 
the system that was already being used by the Department of 
Veterans Affairs. This system, called BOSS, was developed by 
government employees and cost about $2.4 million in total, 
including the costs of automating more than 2.2 million burial 
records, and it works.
    Instead, the Cemetery asked the Army Center for Contracting 
Excellence and the Army Corps of Engineers to award a series of 
contracts to develop their own system called the Total Cemetery 
Management System (TCMS). The Cemetery has spent somewhere 
between $5.5 and $8 million--and, by the way, it is a problem 
we don't know exactly how much--on this TCMS program, and 
today, Arlington National Cemetery still does not have a system 
that can accurately track graves and manage burial operations.
    One reason for this was the lack of management and 
oversight. The Army contracting officials who were responsible 
for these contracts awarded sole source contracts without 
ensuring that the contractors were even able to do the work. 
They failed to make sure the government was paying a fair 
price.
    In addition, the responsible officials outside the Cemetery 
failed to conduct even the most basic oversight. Officials 
within the Assistant Secretary of the Army for Civil Works, who 
have been responsible for the Cemetery's budget for the last 
decade, merely reviewed the materials submitted by the Cemetery 
to Congress regarding TCMS. They did not see the red flags. 
They did not ask any additional questions that would have 
helped bring these problems to light much earlier.
    We have also learned that there has been no review of 
Arlington National Cemetery for the last decade, no review of 
the contracts. And what is even more appalling to me, as a 
former State Auditor, no one has performed any audits 
whatsoever.
    And now we know that the problems with the graves at 
Arlington may be far more extensive than previously 
acknowledged. At a conservative estimate, 4,900 to 6,600 graves 
may be unmarked, improperly marked, or mislabeled on the 
Cemetery's maps.
    We are here today because we owe our veterans better. We 
owe their families much more. We owe more to the Americans who 
expect their government not to fritter away their money on 
wasteful contracts. And the people who let this happen, whether 
it was ignorance, incompetence, or denial, must be held 
accountable.
    This week, after hearing from all of the different 
veterans' organizations, the American Legion, Reserve Officers 
Association, Veterans of Foreign Wars (VFW), all of them have 
participated by submitting information for this hearing. 
Although this is the Subcommittee on Contracting Oversight, 
what is most important is to get this right for all of the 
veterans and their families who have sacrificed so much for our 
country.
    In their statement, the Veterans of Foreign Wars, one of 
the Nation's largest and oldest veterans' associations, which 
also happens to be based in Kansas City, wrote the following. 
``What occurred at Arlington is a national disgrace, yet the 
VFW hopes it will serve as a wake-up call. The failure at 
Arlington National Cemetery was allowed to occur by a hands-off 
attitude by those more senior in the chain of command who may 
have regarded their oversight responsibility more as an 
additional duty than a primary mission.''
    I hope today's hearing is a very loud, very clear wake-up 
call to everyone involved. And let me say that there are so 
many men and women who work at Arlington National Cemetery and 
who volunteer there, the Old Guard, thousands of people who do 
the right thing every day, day in and day out, and their work 
should not be diminished by this hearing. We should lift them 
up and thank them for every effort they make to make sure that 
every burial is dignified and patriotic in a way that our 
Nation expects.
    I think at the end of today's hearing we will know much 
more about what happened and why. What we won't know at the end 
of this hearing is how quickly we can fix it and how we can 
repair the hole in the heart of so many families across this 
Nation that are now going to wonder, is this really the 
gravesite of my loved one? Is this really where they are 
buried? Until we get this fixed, and until we can stand tall 
with our shoulders back and say we have fixed the problems at 
Arlington National Cemetery, no one who has responsibility for 
this in the Army should rest, and we are going to make sure in 
this Subcommittee that we stay on this until we are confident 
that all the problems have been fixed.
    We are going to take time this morning for opening 
statements, not just from the Ranking Member, but from any 
other Members who are here, and so at this time I will turn the 
microphone over to the Ranking Member of the Subcommittee, 
Senator Brown.

               OPENING STATEMENT OF SENATOR BROWN

    Senator Brown. Thank you, Madam Chairman. Today, as Ranking 
Member of this Subcommittee, I would like to first of all start 
out by thanking you for once again bringing to attention 
something of great importance not only to me personally, but to 
our country and the families of our men and women that are 
serving.
    As President Clinton stated in his 1993 Memorial Day 
remarks at Arlington National Cemetery, ``The inscription on 
the Tomb of the Unknown Soldier says that he is, and I quote, 
`Known only to God.' But that is only partly true. While the 
soldier's name is known only to God, we know a lot about him. 
We know he served his country, honored his community and 
family, and died for the cause of freedom.''
    As a 30-year member of the Massachusetts Army National 
Guard, I understand some of the sacrifices that the men and 
women in our Armed Services have made, and my respect for those 
who have made the ultimate sacrifices is clearly unparalleled.
    We are all entrusted with the solemn obligation to ensure 
that our heroes buried at Arlington National Cemetery receive 
the utmost dignity and respect that this country can offer, and 
today, I intend to focus on how the caretakers of our national 
shrine were allowed to violate our Nation's sacred trust. It is 
my intent to not only determine the causes of these astonishing 
management and oversight lapses, but also to look forward and 
identify real solutions.
    The problems uncovered at Arlington National Cemetery have 
made national headlines and have tarnished the sacred trust 
with military families that we have. The well-publicized burial 
problems, including the misidentifying of grave sites, losing 
remains, double burials, and failure to notify families of any 
problems have eroded the confidence the families of our fallen 
heroes have that their loved ones' remains will be respected. 
And evidence from the Army Inspector General investigation 
report that one set of cremated remains was improperly disposed 
of and reburied as unknown is particularly wrong, as a loved 
one's remains are essentially lost forever.
    My service in the National Guard has taught me the 
importance of an effective command and control structure, and 
today, I intend to examine who in the Department of the Army 
was responsible for the oversight of the Cemetery and why these 
problems were allowed to develop and remain uncorrected for 
many years.
    My understanding is that the Army has been aware of the 
management issue since 1997, when the Military District of 
Washington IG inspected the Cemetery. The Army audit report is 
clear that the management entrusted at Arlington National 
Cemetery failed to properly execute their duties. Cemetery 
management failed to address one of the primary causes of the 
burial problems, the reliance on an inaccurate Cemetery map. In 
only three of 70 sections of the Cemetery, 211 discrepancies 
were identified between the map and the gravesites. In an age 
where geolocation software is available for free on our mobile 
phones, with all of the United States Army's vast resources 
available, it is truly incomprehensible to me that we are 
unable to accurately depict a map on merely 600 acres of land 
in the heart of our Nation's Capital.
    And to address this problem, Cemetery management attempted 
to automate the effort, but unfortunately for the families and 
descendants of the American taxpayers, the automation efforts 
have improved little for the millions of dollars spent. After 7 
years of effort, over 35 IT contracts totaling approximately 
$10 million, the Cemetery still uses a system implemented in 
2003 that is inefficient and has significant functional 
limitations.
    We intend to examine in today's hearing why the Cemetery's 
acquisitions and efforts were so futile and where the 
taxpayers' money went and how can we get it back, and once 
again, more importantly, how do we solve the problem so it 
doesn't happen and continue to happen.
    Unfortunately, I don't have a great deal of confidence that 
the Army or anyone else knows the full extent of the burial 
problems, but I do know that we can't tolerate these problems 
any longer. Arlington represents to the world and our country 
the value we place on our veterans in life and in death and the 
Army must restore the solemn trust that America's heroes 
deserve, and we expect no less.
    Madam Chairman, thank you for the time and thank you once 
again for bringing this to everyone's attention.
    Senator McCaskill. Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Madam Chairman. Let me begin by 
thanking you and the Ranking Member for your leadership in 
investigating this very important issue.
    Nearly every American can picture the peaceful rolling 
green hills dotted with row upon row of bleached white 
headstones. This iconic image of Arlington National Cemetery is 
close to our hearts, for we know that the landscape reflects 
the thousands of lives given in service to this great country. 
Although established in 1864, this Cemetery includes the 
remains of veterans from every one of America's wars, from the 
American Revolution through the Iraq and Afghanistan conflicts. 
This place, then, has long been regarded as America's hallowed 
ground.
    Privates are buried there, as are Presidents. The Tomb of 
the Unknown Soldier honors unidentified warriors from past 
wars. Sailors who died when the U.S.S. Maine was sunk in Havana 
in 1898 are memorialized there. Our collective history is read 
in this Cemetery, carved in stones that recite the names of 
veterans from the birth of our Nation to today's War Against 
Terrorism.
    We expect the utmost honor and dignity to be given to those 
buried at Arlington. Tragically, we now know that this most 
basic of expectations was neglected. Gross mismanagement of 
these sanctified grounds has tarnished the sacred trust and 
shaken many military families.
    We learned this heartbreaking truth on June 10, when the 
Army Inspector General released a special report on the 
operational and contracting deficiencies at Arlington National 
Cemetery. The findings were appalling. Investigators found 
unmarked graves, gravesites misidentified on Cemetery maps, and 
at least four burial urns that had been unearthed and their 
contents discarded.
    The Cemetery had not been inspected or audited for more 
than a decade, an unbelievable lapse of oversight. The Army has 
admitted that it lacked a single point of responsibility and 
accountability for the operations and oversight of the 
Cemetery. That admission is a first step, but the families, 
fellow service members, and friends of our fallen heroes must 
have their trust restored. Right now, that bond is broken.
    The IG's report documents further mismanagement of the 
Cemetery and an utter lack of Army oversight spanning many 
years. The Army IG made 76 findings and 101 recommendations, 
some of which were the very same deficiencies from a 1997 IG 
inspection of the Cemetery. Let me repeat that. The Army was 
alerted to some of these problems 13 years ago, yet nothing was 
done to make things right.
    A main cause of the burial problems was the ill-advised 
reliance on an inaccurate map of the burial plots. In just 
three of the 70 sections of the Cemetery, more than 200 
discrepancies have been identified between the map and the 
gravesites. To correct these discrepancies, in May 2002, the 
Cemetery management embarked on an ambitious project to update 
the mapping operation, but this goal was never met.
    Despite more than 35 IT contracts totaling more than $5.5 
million, the Cemetery continues to use manual records and an 
electronic tracking system set up in 2003. There are many 
reasons for this tremendous waste of taxpayer funds, but a 
primary culprit in derailing the automation efforts can be 
traced to a lack of effective contract oversight.
    Through this hearing, it is our intent not only to 
determine the causes of these disturbing and painful lapses, 
but also to identify solutions and to establish a time table 
for urgent action. We must take aggressive steps to remove this 
tarnish from our national landmark and to renew the promises 
made to our military families and to the American people.
    Thank you, Madam Chairman.
    Senator McCaskill. Thank you, Senator Collins. Senator 
Tester.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Yes, thank you, Madam Chairman. Thank you 
for having this hearing. It is an understatement to say it is 
truly unfortunate we even have to be here today.
    When you talk about burying our loved ones, it is a pretty 
basic act that has gone on since the beginning of mankind. When 
you talk about burying our war heroes and the people who served 
this country so well in a place as Arlington National Cemetery, 
I can tell you from my perspective, this is not only totally 
unacceptable, it is a black eye that, quite frankly, needs to 
be dealt with in a way to make things right as soon as 
possible.
    Whether it is a lack of information technology, whether it 
is a lack of contracting oversight, I hope we get some insight 
into that today. But what has happened here, I am going to be 
interested to hear what the excuses are, because I can't figure 
it out in my head. This isn't like putting a man on the moon. 
There is nothing really mystifying about burying our loved ones 
and keeping track of them and making sure that the ones are in 
the grave that are supposed to be there.
    Here is the upshot. The upshot of this is I have a lady who 
works for me, does my natural resource work in the State of 
Montana. She happens to be out here. She was actually raised 
out in this neck of the woods and her father was buried in 
Arlington Cemetery a couple years ago. Her mom is still alive. 
She is out here this week. She called up her mother and she 
said, ``I think I am going to go over and visit Dad's grave in 
Arlington,'' to which her mother's response was, ``Do we really 
know if he is in that grave?'' This is a true story. That is 
the upshot of this.
    Madam Chairman, we have Mr. Metzler here today. I believe 
that is correct. I don't know if we have Mr. Higginbotham here 
today or not. I certainly hope so. But hopefully, we will get 
some sort of understanding of what went on here and some 
solutions on how to fix what I think is a problem that should 
have never, ever--we should not be here today. This should 
never, ever, ever have happened.
    So thank you for holding the hearing, Madam Chairman.
    Senator McCaskill. Thank you, Senator Tester.
    Our first panel, if you would join us at the witness table, 
our first panel is John C. Metzler and Thurman Higginbotham. We 
will do seven-minute rounds of questions. After this panel, we 
have a second panel of officials that will testify.
    It is the custom of this Subcommittee that we have our 
witnesses sworn in, and so if you all would stand and I will 
administer the oath.
    Do you swear that the testimony that you will give before 
the Subcommittee will be the truth, the whole truth, and 
nothing but the truth, so help you, God?
    Mr. Metzler. I do.
    Mr. Higginbotham. I do.
    Senator McCaskill. Mr. Metzler is the former 
Superintendent--thank you, gentlemen. You may be seated.
    John Metzler is the former Superintendent of Arlington 
National Cemetery and Thurman Higginbotham is the former Deputy 
Superintendent of Arlington National Cemetery. We will defer to 
you all for your opening statements.

 TESTIMONY OF JOHN C. METZLER, JR., \1\ FORMER SUPERINTENDENT, 
                  ARLINGTON NATIONAL CEMETERY

    Mr. Metzler. Good morning, Madam Chairman, Members of the 
Subcommittee. As the Subcommittee is well aware, I was the 
Superintendent of Arlington National Cemetery for the last 19 
years. Prior to Arlington, I had 17 years' experience with the 
Department of Veterans Affairs in their Cemetery system. I also 
served 6 years of earlier government service, including one 
tour of active duty in the Army with one tour in Vietnam as a 
helicopter crew chief with the First Aviation Brigade.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Metzler appears in the appendix 
on page 65.
---------------------------------------------------------------------------
    Over my 42 years of service to our Nation, my respect, 
admiration, and gratitude to our men and women in uniform and 
their families has only increased. I hold them in the highest 
regards. Personally, it pains me that our team at Arlington did 
not perform all aspects of its mission to the highest standard 
required.
    As a senior government official in charge of the Cemetery, 
I accept full responsibility for all of my actions and for the 
actions of my team, and I want to express my sincere regrets to 
any family who may have--these failures may have caused them 
pain.
    As you evaluate these issues, it is important to fully 
appreciate the complexity and breadth of the operation at 
Arlington National Cemetery. They are unique and extraordinary. 
This complexity and breadth has only increased during my 
tenure. Of the more than 330,000 burials at Arlington National 
Cemetery which have taken place over the last 146 years, 
110,000, one-third of them, took place during my tenure. There 
are only two or three large private or Department of Veterans 
Affairs Cemeteries in the world that have the complexity and 
the comparable volume of funerals that Arlington does each 
year, 6,000 or 7,000.
    None of these cemeteries, however, required the attention 
for ceremonial coordination and support that is routine at 
Arlington Cemetery. None of these cemeteries have 3,000 non-
burial ceremonies that are conducted regularly at Arlington. 
None of these cemeteries have records that go back over 100 
years. And finally, none of these cemeteries have over four 
million visitors who tour the grounds each year.
    Activity at this level is sensitive and important and 
requires constant and exceptional attention for action. There 
are no time-outs or do-overs.
    Funeral services continue to be a vital--and are conducted, 
excuse me, in all circumstances. We conducted services at 
Arlington Cemetery on September 11, 2001 and the day after. 
During this recent record snowfall in which the Federal 
Government was closed for four consecutive days, Arlington 
Cemetery continued with its burial schedule.
    It is undisputed that the overwhelming majority of the 
funerals at Arlington National Cemetery have been completed 
successfully, without error, and to the complete satisfaction 
of the families. I do not highlight this point to excuse any 
possible findings that may have occurred. I understand that 
each burial service at the Cemetery must be conducted as close 
as possible to zero defect every time. I understand that the 
complete burial--excuse me. I understand that completing that 
burial is a significant event for each family involved. There 
has been an enormous amount of good that has been accomplished 
for tens of thousands of families and each time the funerals 
were conducted correctly at Arlington.
    I know the Army is working hard to correct the IG's finding 
and that the Cemetery will improve its operation.
    During the last 19 years that I was the Superintendent, we 
did not receive the funding that was needed and the dedicated 
staff of the Cemetery was reduced by 35 percent, from 145 when 
I arrived to 95 today. Of these 95, approximately 35 people are 
performing administrative tasks. Those staffing losses were to 
be offset by increased opportunities for outsourcing of private 
contracts. As experience has shown, however, that approach does 
not always result in the most efficient or effective solution. 
There are no substitutes to having dedicated staff in the 
important areas such as government technology and contracting, 
none of which I had during my tenure. Further, issues can be 
minimized and eliminated with both funding and staffing 
requirements to do this important work.
    In any event, I know the Army is committed to doing 
whatever it takes to make things right now and in the future. 
As difficult as it is for me to conclude my lengthy Federal 
service under these circumstances, I will always value the 
opportunity I had to be Superintendent of Arlington National 
Cemetery, and I am prepared to answer your questions as best I 
can. Thank you.
    Senator McCaskill. I want to tell you, Mr. Metzler, how 
much we appreciate you being here today. I am sure this is not 
a pleasant experience for you and it means a great deal that 
you are here and that you are standing and willing to answer 
questions. On behalf of the Subcommittee and the Subcommittee 
staff, we appreciate it very much.
    Mr. Metzler. Thank you.
    Senator McCaskill. Mr. Higginbotham, do you have an opening 
statement?

       TESTIMONY OF THURMAN HIGGINBOTHAM, FORMER DEPUTY 
          SUPERINTENDENT, ARLINGTON NATIONAL CEMETERY

    Mr. Higginbotham. No, ma'am, I do not. After consultation 
with counsel, I will assert my Fifth Amendment rights to any 
and all questions that the Subcommittee may ask.
    Senator McCaskill. I appreciate the fact that you are 
asserting your right, but procedurally, it will be necessary 
for us to ask you some questions and you to assert that 
privilege in response to those questions in order for us to 
make the record that is appropriate going forward. So we will 
be asking you some questions and you will then have to decide 
as those questions are asked if you wish to assert the right. 
If you do assert the right repeatedly, a few times, then we 
will make the necessary steps in the record to reflect that you 
have done so.
    Mr. Higginbotham. Thank you.
    Senator McCaskill. Do you have any questions, Mr. 
Higginbotham, in that regard?
    Mr. Higginbotham. No, ma'am.
    Senator McCaskill. Then we will begin questioning, and let 
us start with you, Mr. Metzler. Let us be clear. How long were 
you an employee at the Cemetery?
    Mr. Metzler. I was an employee there for 19 years and 6 
months.
    Senator McCaskill. And on what date did you retire?
    Mr. Metzler. July 2, 2010.
    Senator McCaskill. Who did you report to in the Army? Who 
was your boss?
    Mr. Metzler. My direct report was the Commanding General of 
the Military District of Washington.
    Senator McCaskill. All right. And was there any other 
report you had, other than the Commander of the District of 
Columbia?
    Mr. Metzler. Yes, ma'am. I reported to the Assistant 
Secretary of the Army for Civil Works on budget and policy 
issues, and to the Assistant Secretary of the Army for Manpower 
and Reserve Affairs on eligibility issues and exceptions to 
policy, and to the Chief of Media on any media-related issues.
    Senator McCaskill. OK. And who reported to you at Arlington 
National Cemetery?
    Mr. Metzler. The Deputy Superintendent, the Historian, my 
secretary, and the Chief Financial Officer (CFO).
    Senator McCaskill. OK. So you had your secretary, you had 
the Deputy, you had the Historian, and who was the other?
    Mr. Metzler. The Chief Financial Officer.
    Senator McCaskill. The CFO, OK.
    Mr. Higginbotham, how long were you an employee at the 
Cemetery?
    Mr. Higginbotham. After consultation with counsel, I will 
assert my Fifth Amendment--I can answer? Oh. You can ask the 
question again, ma'am.
    Senator McCaskill. How long were you an employee with the 
Arlington National Cemetery?
    Mr. Higginbotham. I started at Arlington in July 1965 and 
had a break in service to attend mortuary school and I returned 
to the Cemetery in 1977.
    Senator McCaskill. And when did you become the Cemetery's 
Deputy Superintendent?
    Mr. Higginbotham. Nineteen-ninety--1990, I believe it was. 
Yes.
    Senator McCaskill. And what date did you retire?
    Mr. Higginbotham. July 3.
    Senator McCaskill. Mr. Higginbotham, what were your 
responsibilities as Deputy Superintendent?
    Mr. Higginbotham. Well, I was an assistant to the 
Superintendent in his responsibilities.
    Senator McCaskill. And so did you take your direction 
directly from him?
    Mr. Higginbotham. Yes.
    Senator McCaskill. Were there things that you did 
independently of his direction?
    Mr. Higginbotham. I had decision making for supervisors 
that worked for me, yes.
    Senator McCaskill. Who reported to you at the Cemetery? How 
many direct reports did you have?
    Mr. Higginbotham. Well, we had three divisions that 
reported to me, Facilities, Administrative, and Operations.
    Senator McCaskill. Mr. Higginbotham, it is pretty obvious 
if you read the record that you and Mr. Metzler just didn't get 
along. Is that a correct statement? Would you argue with that 
statement?
    Mr. Higginbotham. Not in my opinion.
    Senator McCaskill. You did not get along?
    Mr. Higginbotham. Yes--no, we did get along.
    Senator McCaskill. You did get along?
    Mr. Higginbotham. Yes.
    Senator McCaskill. So the fact that there was a report that 
was done as early as 1997 saying that there was real--in fact, 
1994, I believe, even after you had been Deputy only for a few 
years, two different times, there was an assessment of what was 
going on in Arlington and in both instances they said that 
there was a great difficulty between the two of you, that you 
did not have a good working relationship, that morale was low 
because of it, and, in fact, you were counseled. The record 
says you were counseled as it relates to your ability to work 
with Mr. Metzler. Is that not accurate?
    Mr. Higginbotham. Partially. I think if we go back to when 
Mr. Metzler arrived at Arlington in, I believe it was 1991, I 
was already the Acting Superintendent because the prior 
Superintendent had quadruple bypass surgery and he decided to 
retire. I applied for the job as Superintendent. I was told 
that I was not eligible for the position because I was 22 days 
short of time in grade, to move, the 1 year in grade at the 
lower grade.
    I think coming in, a new individual, I had no animosity 
toward Mr. Metzler whatsoever. He was new to Arlington, 
although, he had lived there years ago. His management style 
was new to me. I had worked under a previous Superintendent and 
we both had the same feeling about Arlington to do the right 
thing. We were like a corporation. He had 51 percent and I had 
49. So any decisions we made were ultimately his decisions. But 
I don't feel that report accurately reflected. I think it was 
more of the staff perception that we didn't get along.
    Senator McCaskill. All right. Before my time runs out on 
the first round, I want to establish something for the record 
before we go any further. Mr. Metzler, what was the first date 
that you knew that there were problems with the location of 
burial remains at Arlington National Cemetery?
    Mr. Metzler. With the IG report, ma'am?
    Senator McCaskill. No. I want to know, when was the first 
date--forget about all the reports, I want to know that day 
when you are in your office and you receive information and you 
have a sinking sensation that you may have a problem about 
where bodies are buried at Arlington National Cemetery. What 
year did that occur?
    Mr. Metzler. I never had that problem.
    Senator McCaskill. So you are saying that you never had any 
inkling that there could be an issue with the location of 
remains at Arlington National Cemetery until June of this year?
    Mr. Metzler. Until the IG's report. Anytime an individual, 
anytime a family member, anytime an employee brought an issue 
to my attention in this regards, we looked at it immediately. 
We stopped what we were doing and we went out to the field and 
we validated anyone's concerns.
    Senator McCaskill. Wait a minute. So you are saying that 
when there was an issue, you went out and you saw that there 
was a concern, or you found that it was not valid, the concern 
was not valid?
    Mr. Metzler. I found that either the concern was not valid 
or there was an explanation that went along with it. There 
would be oftentimes where family members--no, let me restate 
that. From time to time, family members would contact the 
Cemetery and tell us they could not find their loved one and we 
would find out that they were in the wrong burial section or 
that they had referenced a tree or some other permanent 
structure in the Cemetery and that structure either had been 
removed or they were just in the wrong location. So we would go 
out with them and we would show them how to find their loved 
one's grave. That was a problem in any cemetery that expands 
and continues to grow. People pick up landmarks and don't use 
the numbering system on the back of the headstones.
    Senator McCaskill. But you are saying that until the IG's 
report came out in June, you had never been made aware of an 
instance where a headstone was marked wrong, a body was 
mislocated, an urn was found buried in the same location as 
other remains, that there were more than one body in one grave, 
that an urn had been----
    Mr. Metzler. Well, I----
    Senator McCaskill [continuing]. That you never had any 
inclination that----
    Mr. Metzler. No. I did have inclinations of those on a one-
to-one basis. But every time one was brought to our attention, 
we corrected those issues, whatever that issue was, and we 
annotated the records to fix the problem.
    Senator McCaskill. OK. So you knew there were problems. You 
are just saying that as they came along, you fixed them?
    Mr. Metzler. Yes, ma'am.
    Senator McCaskill. All right. And when was the first date 
you knew that you had at least one problem that had been 
validated as to location of remains at Arlington National 
Cemetery? What year was that?
    Mr. Metzler. I don't know. I mean, this is an issue, the 
way you are asking the question, that could happen virtually 
any day in the Cemetery operation, where someone could come in 
and ask a question that you would have to go out and look at 
it.
    Senator McCaskill. I am not saying that somebody couldn't 
find something and you helped them find it. I am saying that 
when you looked into it, you realized that a grave was 
mismarked or there were multiple bodies buried there or that 
the body wasn't in the location that you thought it was in and 
you weren't sure where it was. I am talking about those 
situations. When--what year did one of those situations come to 
your attention?
    Mr. Metzler. Well, I think the one situation that we were 
talking about, where remains were buried in a grave and 
unmarked, came to our attention about a year ago. We had an 
issue during the development of Land Development 90, referred 
to as LD 90. This was the last 40 acres of the Cemetery. In the 
process of developing that land, this was a fill area where 
soil had been reposited there for probably 35 years. So the 
soil started to be distributed over this 40-acre land mass, and 
in the process of doing that, two urns were discovered.
    Senator McCaskill. And when was that? What month and year 
was that?
    Mr. Metzler. Ma'am, I am guessing. I don't recall the 
month, the year, but I would say it has to be at least 5 years 
ago that came about.
    Senator McCaskill. OK. And I will have the same question 
for you, Mr. Higginbotham, on my next round, but my time is 
over and I want to be respectful of my colleagues, so Senator 
Brown?
    Senator Brown. Thank you, Madam Chairman.
    Mr. Metzler, you noted in your opening statement that the 
majority of the burials are done successfully. I didn't fall 
off the turnip truck yesterday. The majority are done 
successfully? I would think that at a cemetery of this prestige 
that 100 percent of them would be done successfully, and that 
is why we are here, is the fact that they are not being done 
successfully and we owe it to our families and our soldiers to 
get it right. With all due respect, once again, there are many 
cemeteries throughout this country that have the foresight and 
courtesy to make that extra effort to automate the systems and 
identify properly where people are buried so the people and 
family can have closure.
    I guess my first question is, can you clarify for the 
record what your responsibilities specifically were in terms of 
who was responsible for identifying properly the gravesites? 
Whose ultimate responsibility was that? Was it yours?
    Mr. Metzler. Ultimately, the responsibility is mine as the 
Superintendent, yes.
    Senator Brown. And when the IG investigation report 
detailed the problem that existed for a period of over 18 
years, and I am presuming it is the time that you were there, 
because you have been there for quite a while, it also noted 
that the relationship between you and the Deputy--how much do 
you think the relationship between you and the Deputy affected 
or contributed to the documented problems at the Cemetery?
    Mr. Metzler. I don't believe it contributed at all. Mr. 
Higginbotham and I met daily at staff meeting. We would meet 
periodically two or three times a day, either in his office or 
in my office. We would confer on anything that was unusual or 
different. We would often go out to the Cemetery together to 
look at issues that were going on in the Cemetery. I mean, we 
had a very professional relationship that interacted each day 
with each other. We had the same common goal here on 
automation. We wanted to see the Cemetery automated as quickly 
as possible.
    Senator Brown. Well, I noted here in actually an Arlington 
National Cemetery article where you called him a visionary when 
it came to technology and trying to--and I am paraphrasing--
trying to implement the technology plan, and you said that is 
not a word that should be tossed around lightly. The funds were 
provided. What is the status of the so-called technology at 
this point? Where are you? How many graves have been 
identified? What is the status of the IT, the systems, etc?
    Mr. Metzler. There are approximately 60,000 graves that are 
automated right now since around 1999 with the use of the VA 
system, BOSS, Federal Operation Support System, and then our 
continuation of the Internment Support System (ISS). We have a 
system that we are trying to develop to improve the ISS. We are 
on our second generation. We are trying to get to the third 
generation, which would make this system an Internet-based 
system.
    So we have been working toward that. Unfortunately, with 
the inspections and the reports that have gone on, all this 
work now has come to a halt and no work currently is being done 
to continue automating the system.
    Senator Brown. So since 1997, you said, you have----
    Mr. Metzler. No, sir. We started in 1999 trying the VA BOSS 
system. We worked on that system for about 2\1/2\ years and we 
found that it was not compatible with our needs at the 
Cemetery. Yes, it would put the information into a system, but 
the Cemetery at Arlington is much more complex with our 
scheduling system. I tried to work with the Veterans 
Administration to get them to modify their scheduling system to 
accommodate our needs.
    Senator Brown. Well, they offered it to you basically for 
nothing, for at cost. Couldn't you----
    Mr. Metzler. No, sir, that is not accurate.
    Senator Brown. That is not true?
    Mr. Metzler. No, sir.
    Senator Brown. Interesting.
    Mr. Metzler. I mean, I personally worked with their IT 
team. I was with the Veterans Administration----
    Senator Brown. Well, was it a cheaper cost than what you 
have expended so far and have really little to show for it? Was 
it offered to you at a cheaper cost? Would you have saved the 
taxpayers money by implementing and modifying a system that has 
been up and running and working properly?
    Mr. Metzler. I could not get them to modify their system, 
sir.
    Senator Brown. But you could have taken that system and, in 
fact, adopted it and modified it at cost yourself.
    Mr. Metzler. It was not my system. It was the Veterans 
Administration system. I tried to work with their IT staff to 
see if they would not modify their system to their needs and 
they could not accommodate us on that.
    Senator Brown. Who is responsible for issuing contracts, 
signing contracts and going out and actually entering into IT 
or other types of arrangements to improve the system that you 
were working on.
    Mr. Metzler. Contracting officers either at the Baltimore 
Corps of Engineers or at the Army Center of Excellence for 
Contracting.
    Senator Brown. Based on whose recommendation?
    Mr. Metzler. It would be based on our recommendation at the 
Cemetery. We would----
    Senator Brown. Our? Who is ``our''? Is it you? Is it the 
Deputy? Is it a combination?
    Mr. Metzler. It is a combination. I mean, any of our staff 
members--there are basically three styles of contracts that we 
work with on a regular basis, construction contracts, services 
contracts, and the IT contracts.
    Senator Brown. I guess what I am trying to find out, and I 
am not getting there yet and I am glad we are going to have a 
couple of rounds, is what specific actions did you take to 
address the underlying issues and problems, the burial 
problems, in particular, at the Cemetery? What have you done 
since the report? You say you were addressing them and you were 
working on them.
    We had September 11, 2001. We had burials. We had a lot of 
burials. Every cemetery has burials, but these are special 
burials. There are burials and then there is a different level. 
These are the people that are being buried at Arlington 
National Cemetery. I mean, growing up, I think of that and it 
is the cemetery in our country that we all have great pride in, 
and to find out that it is--it is almost like learning that 
there is no Santa Claus or Easter Bunny.
    It is something that, in fact, is held at such high esteem, 
and then here we are. Is it fact or fiction, reality? Who is 
buried there? There are so many questions. What have you, in 
fact, done since then?
    Mr. Metzler. One of the things we did is we went out and 
did a field survey of the sections that were brought to our 
attention, and what we found in the field survey is that the 
working maps were not accurately posted.
    Senator Brown. And then what did you do?
    Mr. Metzler. We went out and validated each area to ensure 
that if there was a burial there, there was a headstone there. 
If there was not--if the map indicated there was a burial and 
there was no one buried there, we validated that the grave was 
empty. If we found that there was a site where a headstone 
should have been installed and it was off by a number of 
graves, we checked to be sure that there were remains in the 
grave and then we put the headstone up there----
    Senator Brown. How do you know the remains were the 
accurate remains? How did you match up that?
    Mr. Metzler. We matched them up with the records of 
internment and with the grave survey cards.
    Senator Brown. Are you still dealing with--my understanding 
are you still dealing with paper cards, is that right?
    Mr. Metzler. We are still dealing with paper cards, two 
sets of cards, an alphabetical set of cards and a numerical set 
of cards.
    Senator Brown. So let me get this straight. It is 2010 and 
you guys--may I take this for a minute, Madam Chairman and just 
show it? You have this amazing piece of technology right here. 
It is an amazing piece of technology right here.
    Senator McCaskill. Make sure everyone knows that this is 
the IG report I am reading, not----
    Senator Brown. Yes. No, I know that---- [Laughter.]
    Senator McCaskill. It is hearing materials I am reading. It 
is not something other than hearing materials. [Laughter.]
    Senator Brown. I know that. We have cell phones. We have 
iPhones. We have this and that and you guys are still dealing 
in cards. I find that just--I just can't get my hands around 
that. How do you----
    Mr. Metzler. As frustrated as you are, sir, with this, you 
can only imagine our frustration at the Cemetery. Arlington 
Cemetery was funded--and is funded still to this day--as a 
separate government agency. We are not----
    Senator Brown. Yes, but you have been given between $7 and 
$10 million to upgrade the IT and the technology, isn't that 
right?
    Mr. Metzler. But, sir, not all that money went to upgrading 
IT. We are maintaining fiber optics in the Cemetery. We are 
maintaining our work stations, our computer stations. We have 
IT staff on board to assist the staff when they have their 
issues, printers, fax machines. All that rolls into that----
    Senator Brown. Yes, but with all due respect, sir, the top 
priority should be identifying and accurately categorizing in 
modern times and not using three-by-five cards for the people 
who are the national heroes of this country. That priority 
should have been given to the fallen who are buried there, the 
honored dead, and not fax machines and copy machines. You 
should have identified and properly categorized all of these 
remains so they can live forever accurately.
    So I will continue on in the next round, Madam Chairman. 
Thank you. And I apologize for doing that, but it just went to 
the fact that it is 2010. We have all this technology and we 
are still dealing in three-by-five cards. It is a joke.
    Senator McCaskill. Senator Collins.
    Senator Collins. Thank you, Madam Chairman.
    Mr. Metzler, I want to follow up on the questions that the 
Chairman asked you. There are certainly cases where family 
members misread the map or were in the wrong section or relied 
on a landmark that was no longer there and thus could not find 
the burial plot of their loved ones. We are not talking about 
those kinds of cases. We are talking about cases where because 
of problems made by the Cemetery, their loved ones' graves are 
unmarked or not in the right place or there is a mismatch.
    I am trying to better understand when the broader problems 
came to your attention and when, if ever, you perceived that 
there was a pattern of problems caused by operational 
deficiencies at the Cemetery.
    Mr. Metzler. The way Arlington National Cemetery operates 
is a little different than most VA Cemeteries and even private 
cemeteries today. Arlington Cemetery still buries over the 
grave, so the gravesite is open. The remains straddle an open 
grave. Unlike private cemeteries or the Veterans Administration 
Cemeteries where the burials are done at a shelter or a chapel 
away from the gravesite and then the remains are brought there 
later, at Arlington, we bury the remains over the open grave. 
So we are very confident that the remains are right where they 
are supposed to be because the remains are sitting there right 
in front of the family with an open site at the time of the 
service.
    To also ensure that, we have put a separate tag that the 
Cemetery produces on each casket, on each urn at the time of 
the remains coming into the Cemetery and that remains as a 
permanent marking on the casket or onto the urn as the remains 
are buried or inured in the Columbarium. So as I am sitting 
here, I feel very confident that the remains are where they are 
supposed to be in the Cemetery.
    Now, if someone of my staff didn't follow the procedures, 
that is a different story, but I don't believe that is what we 
are talking about.
    Senator Collins. But Mr. Metzler, you have an IG report 
that identifies 100 graves without the proper burial stone, 
that----
    Mr. Metzler. Ma'am, that is not accurate. I would like--if 
I may, what we are talking about are the working maps that you 
would take out to the field, and on one map are the number of 
graves in that particular section. It could be 5,000 squares or 
it could be 2,500 squares. And each day, the staff is supposed 
to color in the square as the burial is taking place.
    What we found is that these maps were not properly colored 
in. They either misread the map, the staff, or they didn't 
color them in at all.
    Senator Collins. So do you dispute the findings of the IG 
report that there were 100 unmarked graves, that there were 
scores of gravesites misidentified on the maps, that there were 
burial urns that had been unearthed and their contents 
discarded?
    Mr. Metzler. I am not aware----
    Senator Collins. Are you disputing the findings?
    Mr. Metzler. I am disputing what the latter statement is. I 
am never aware of any urns that the contents were discarded. 
Yes, we did find two urns that I was aware of that were buried 
in the Land Development 90--or, I am sorry, were unearthed from 
their graves, most likely--we don't know for sure how they got 
there----
    Senator Collins. Mr. Metzler, this is really important, 
because what you are saying right now is at odds with what the 
Army IG report says. I have the excerpt from the Army IG 
report. It says 117 gravesites were marked as occupied on the 
maps, but none of these gravesites had a headstone or a burial 
card. Do you dispute that finding?
    Mr. Metzler. I do not dispute that finding. What I am 
saying, ma'am, is that the maps were improperly colored. They 
were--the blocks on the maps were colored in when they 
shouldn't have been colored in. We went out and did a field 
survey and we validated that the maps were posted incorrectly.
    Senator Collins. Do you not think it is a problem that 
gravesites are marked as occupied on the maps but don't have a 
headstone or a burial card?
    Mr. Metzler. If, indeed, there was----
    Senator Collins. How are the families supposed to find the 
gravesites of their loved ones?
    Mr. Metzler. Ma'am, what I am saying is the staff marked in 
those sites and they shouldn't have marked in the sites. No one 
was buried at that location. Yes, we did find a few graves in 
each of these sections where the headstones were missing and 
those headstones were ordered as soon as we could validate 
there were remains in the grave and that the staff had 
overlooked ordering those headstones. But the vast majority of 
the graves that you are talking about were simply posting 
errors on a working map.
    Senator Collins. Let me give you another finding. The IG 
said that 94 gravesites were marked on the maps as unoccupied, 
but each had a headstone and a burial card.
    Mr. Metzler. Yes, ma'am.
    Senator Collins. Do you dispute that finding?
    Mr. Metzler. I do not dispute that, and again, that would 
be the map was not properly posted. We went out----
    Senator Collins. But Mr. Metzler, the family members are 
relying on these maps in order to find----
    Mr. Metzler. No, ma'am, they are not relying on those maps. 
The family members are relying on a section and grave number 
that they are given at the day of the service. Those are the 
Cemetery's internal working maps. We don't give those maps to 
the--I mean, these are not maps that we give to the families.
    Senator Collins. You don't think it is a problem that 
gravesites are mismarked?
    Mr. Metzler. I do----
    Senator Collins. Doesn't the staff rely----
    Mr. Metzler. No, I agree with you that the----
    Senator Collins. Well, wait a minute----
    Mr. Metzler [continuing]. The maps should be accurately 
marked.
    Senator Collins. Doesn't the staff rely on those maps when 
they direct the family members to the gravesites?
    Mr. Metzler. They rely on those maps to give them 
direction, but they don't show the family that the individual 
is buried at that map. That would give them a location, a grid 
location, if you will, within the Cemetery so that they could 
help find their loved one. Each of the headstones are marked on 
the back with the section and grave number in numerical 
sequence.
    Senator Collins. Mr. Metzler, if your staff is relying on 
these maps and these maps are inaccurate, and you are not 
disputing that the maps are inaccurate, then aren't family 
members going to have a difficult time finding the appropriate 
gravesite?
    Mr. Metzler. No, ma'am.
    Senator Collins. I have to tell you, your answers make no 
sense to me whatsoever. I am going to switch to a different 
issue in the very short time----
    Mr. Metzler. If I could just finish one point on that, we 
did correct each of these maps, so with the IG report, they 
reported 211. Each of those three burial sections have been 
corrected and the maps are currently posted correctly and 
copies were given to all different divisions within the 
Cemetery so they would have the latest updated map.
    Senator Collins. Mr. Metzler, in your testimony, you blamed 
a lot of the problems on a lack of resources. You said that the 
Cemetery staffing had been reduced by 35 percent, from 145 to 
95 civilian employees. When I look at the budget over the last 
10 years, I see significant increases, from $13 million in 
fiscal year 2000 to a high of $39 million in fiscal year 2010. 
If you thought the money was being spent for the wrong things, 
if you thought you were understaffed, whom did you relay that 
to?
    Mr. Metzler. Each budget cycle, we would bring this 
discussion to the table with the Assistant Secretary of the 
Army's representative, as well as with the Office of Management 
and Budget (OMB) as we submitted our budget submission for the 
upcoming year.
    Senator Collins. And you specifically asked for more money 
and more staff and were turned down?
    Mr. Metzler. We were asking to be increased. We were 
usually cut back by OMB to lower numbers, and it was through 
the pass-backs that we would go through and with the Assistant 
Secretary of the Army for Civil Works who helped us 
tremendously keep our numbers up to the 95. If not, we would 
have been reduced even further. The mission or the policy had 
been to reduce the government workforce and each year we were 
having our workforce cut away a little at a time. So we were 
holding onto the basic function of burying the dead and 
everything else was just about contracted out with outsourcing.
    Senator Collins. Thank you, Madam Chairman.
    Senator McCaskill. Senator Tester.
    Senator Tester. Yes. Thank you, Madam Chairman. I 
appreciate it. I appreciate both you gentlemen coming today and 
I appreciate the questions that are being answered today.
    I didn't want to go down this line, but Senator Collins has 
forced me to go down here one more time. You are saying that 
what the IG found was there are errors on a set of working 
maps, but there were another set of maps that were right, yes?
    Mr. Metzler. No, sir, that is not what I said.
    Senator Tester. So what you are saying is that there are 
errors on a set of working maps and that the other set of maps 
was incorrect?
    Mr. Metzler. The working maps, when it was brought to our 
attention that these maps were inaccurately posted, we went out 
and did the field survey of the sections that were brought to 
our attention and we corrected those maps, reposted on the 
permanent set, which is another set of maps that is kept in a 
different location in the Cemetery, and then sent working 
copies out to all the divisions within the Cemetery.
    Senator Tester. The permanent maps were correct, is what 
you were saying?
    Mr. Metzler. Not until we corrected them.
    Senator Tester. OK. So what you are saying is the IG report 
was correct. If the permanent maps were incorrect and the 
working maps were incorrect----
    Mr. Metzler. The maps were----
    Senator Tester [continuing]. Show me one that was correct.
    Mr. Metzler. The maps that are there today are correct.
    Senator Tester. OK. But the maps that the IG looked at were 
incorrect?
    Mr. Metzler. That is correct.
    Senator Tester. And how did you fix those maps so that you 
know that they are correct today?
    Mr. Metzler. We went out to each section and did a field 
survey, checking grave by grave by grave, and where we found 
that the map was posted as someone was there, supposed to be 
buried there, and there was no headstone there, then we would 
go back and check the grave card. The grave card is a numerical 
card, so if you go to one of the sections in the Cemetery, you 
will find grave cards starting with number one----
    Senator Tester. OK.
    Mr. Metzler [continuing]. Going to the end. If we found no 
grave card, then we would probe the grave to see if there were 
any remains in the grave. If there were no remains in the 
grave, then we would realize that the map was posted 
incorrectly.
    Senator Tester. OK. If there were remains in the grave, 
what did you use to know whose remains they were?
    Mr. Metzler. We would look at the site and go back to the 
cards to find the grave card that correlated to that site--
    Senator Tester. OK.
    Mr. Metzler [continuing]. And then we would go back to the 
record of internment, which is the alphabetical listing, and 
then we would find out if there was----
    Senator Tester. Let us go the other direction. Joe Soldier 
was supposed to be buried in that and you go down and there is 
nothing there. Where is Joe Soldier now? I don't understand. I 
mean, you can probe and see if the remains are there and say, 
``Yes, that is right,'' and go back to the grave card. What 
happens in the other direction?
    Mr. Metzler. I know of no incident, sir, where we can't 
find a set of remains.
    Senator Tester. OK. So you know where everybody is?
    Mr. Metzler. If you give me a name, I can go out there and 
find the location----
    Senator Tester. And you are sure of whoever is buried in 
that grave is who is buried in that grave, even though you have 
some maps that are right and some maps that are wrong? Do you 
understand what I am saying? I am not trying to be critical 
here, but I am trying to be obvious. How do you know which set 
of maps are right if you have one set that is wrong and one set 
that is right? How do you know this set is right and that set 
is wrong, or that set is wrong and this set is right?
    Mr. Metzler. Each time we post a set of maps, we put a date 
on that map as to when it was posted. The maps are only as 
accurate as the last date on that map, and from that point 
forward, the map becomes a working map.
    Senator Tester. And if that last date is incorrect, then 
that map is inaccurate and everything is screwed up. I don't 
know how you can find the bodies once they are in the ground or 
once they are supposed to be in the ground and not in the 
ground. I don't know how you fix that mistake, but we can go to 
a different direction here.
    I want to talk a little bit about budgeting. You talked 
about declining budgets, but then again, Senator Collins 
pointed out that your budget from 2000 went from $10 million to 
$39 million in 10 years. Are those figures correct?
    Mr. Metzler. I believe they are.
    Senator Tester. That is not a declining budget. That is a 
400 percent increase.
    Mr. Metzler. It is also reflected of construction costs. 
Our operation----
    Senator Tester. But you had construction costs previous to 
2000.
    Mr. Metzler. Very minimal construction cost.
    Senator Tester. OK. Who makes the budget decisions?
    Mr. Metzler. The budget recommendation is made out of my 
office, and then the final decision is made by the Assistant 
Secretary of the Army to make the recommendation.
    Senator Tester. So you, ultimately you, because to your 
credit you said, ``I take responsibility for everything that 
has happened, right or wrong,'' you are the one that determines 
how many dollars or how many millions you need for Arlington 
Cemetery, consulting with your staff, with the folks you work 
with, and then you pass that up the chain, is that correct?
    Mr. Metzler. Not entirely, sir. Part of it is we are given 
guidance from OMB at the beginning of the budget cycle----
    Senator Tester. Right.
    Mr. Metzler [continuing]. And they will tell us how many 
millions of dollars we can ask for and what our staffing level 
should be.
    Senator Tester. All right. So if your budget was not 
adequate, whose responsibility is that? Is that yours or is 
that OMB's or is that somebody above you?
    Mr. Metzler. Well, sir, I think it is a combination of us 
asking and justifying and then ultimately we have to support 
the President's initiative and going forward to the 
Appropriations committee and with the guidance that we are 
given.
    Senator Tester. But in your opening statement, you said 
because of funding reductions, your staff was reduced by 35 
percent. I don't--correct me if I am wrong. Did your budget 
reflect that you needed 35 percent less people?
    Mr. Metzler. I don't understand that question.
    Senator Tester. You put forth a budget. Your staff was 
reduced by 35 percent. Was that your decision or was that 
somebody else's?
    Mr. Metzler. No, that was not my decision.
    Senator Tester. Whose decision was it?
    Mr. Metzler. I mean, our staffing levels were reduced by 
OMB each time that----
    Senator Tester. OK. OMB made the reduction?
    Mr. Metzler. Yes, sir.
    Senator Tester. OK. And those were supposed to be offset by 
contractors, right?
    Mr. Metzler. Yes.
    Senator Tester. Who made that decision?
    Mr. Metzler. Again, we were told that we would be supported 
with contract dollars, so----
    Senator Tester. By who?
    Mr. Metzler. By OMB.
    Senator Tester. By OMB?
    Mr. Metzler. Yes, sir.
    Senator Tester. OK. Did you make your plea to the 
Appropriations committee that this wasn't going to work, or did 
you just let OMB do it, or, I mean----
    Mr. Metzler. Sir, we----
    Senator Tester. Don't feel bad about this. I have heard 
this before. But the truth is and the fact is, you have to 
fight for it if you think it is right, and did you fight for 
it?
    Mr. Metzler. Sir, as a member of the Executive part of the 
government, I have to support the President's initiative, and 
the guidance that I am given from OMB is the guidance that we 
set forward.
    Senator Tester. OK. Tell me how the process works with the 
contractors. Was there oversight? You said that the Army Corps 
gave oversight for contractors. There was somebody on site that 
you could go to for--to make sure the contractors are doing 
what they are supposed to do in a timely manner, on budget?
    Mr. Metzler. Typically, there was not a representative from 
the Corps of Engineers on site at the Cemetery.
    Senator Tester. Well, did you have anybody on site 
overseeing the contractors?
    Mr. Metzler. We had what we call Contracting Officers 
Representatives.
    Senator Tester. Were they trained?
    Mr. Metzler. Most were trained through a 40-hour training 
course.
    Senator Tester. Who trained them?
    Mr. Metzler. The contracting office that issued that 
contract.
    Senator Tester. OK. Was there any rivalry between those 
contractors and the folks who worked for you full time?
    Mr. Metzler. Not that I am aware of, no.
    Senator Tester. OK. Was there any point in time during your 
tenure that you requested for contracting support, such as a 
contracting officer on site, or did you see a need for it?
    Mr. Metzler. Well, we would have loved to have our own 
contracting shop internally, but unfortunately, it is not a 
person. It is a series of people, from attorneys to clerks, and 
it would take away from our staffing level to actually perform 
our basic mission at Arlington Cemetery. Our challenge each 
year was holding on to the FTE that we had from the previous 
year and not take a further reduction.
    Senator Tester. All right.
    Mr. Metzler. That was not always successful.
    Senator Tester. OK. Were you happy the way that system 
worked?
    Mr. Metzler. No, sir, I was not happy the way the system 
worked. I had virtually no control or say-so over anything 
going on with contracting and had to rely on the contracting 
officers to perform the requests that we would submit, whether 
it was construction contracts, services contracts, or IT 
contracts.
    Senator Tester. You were the Superintendent of Arlington 
National Cemetery and you didn't feel you had adequate 
supervision over the contractors. That needs to be fixed. I 
mean, if the next person has that same sentiment, we are never 
going to get to a situation where we are doing things right at 
Arlington or responsible to the taxpayers of this country.
    One last question, and I appreciate the latitude the 
Chairman has given me. Today, 20 percent of the graves at 
Arlington are automated. That is fairly correct, isn't it?
    Mr. Metzler. That is approximate, yes.
    Senator Tester. Today, Senator McCaskill can get on that 
little machine right there that Senator Brown brought up, go 
online, and find any grave in the 131 VA National Cemeteries 
right from her seat right there--any grave, she can find. How 
did the VA get so far ahead of Arlington from a technological 
standpoint?
    Mr. Metzler. They had----
    Senator Tester. Because they had the same OMB to work with 
that you had. They had the same administration to work with 
that you had. Go ahead.
    Mr. Metzler. They have a dedicated IT staff in the National 
Cemetery Administration that worked exclusively on the BOSS 
system.
    Senator Tester. OK. And were you aware of that when you 
were Superintendent of Arlington?
    Mr. Metzler. When I worked for the Department of Veterans 
Affairs, I was part of that initial program to automate and was 
a driving force, if you will, to the VA to try to get them away 
from the paper and pencil and to get into the automation 
system----
    Senator Tester. Good.
    Mr. Metzler [continuing]. So yes, sir, I was very much 
aware of the BOSS system----
    Senator Tester. And so did somebody----
    Mr. Metzler [continuing]. And anxious to bring it into 
Arlington Cemetery and try it out.
    Senator Tester. So why didn't it get implemented?
    Mr. Metzler. Well, we did implement it for 2\1/2\ years and 
we just got so frustrated with the system. We couldn't modify 
it to make it work for Arlington Cemetery that we had to walk 
away from it.
    Senator Tester. The VA makes it work for 131 cemeteries. 
You have one.
    Mr. Metzler. Yes, sir.
    Senator Tester. And you can't make it work for that one?
    Mr. Metzler. No, sir. The Arlington Cemetery is unique from 
the standpoint that no cemetery except Arlington has military 
honors that are associated with every funeral, from caissons to 
bands to marching elements to cannons to flyovers. You don't 
have that in the VA Cemeteries.
    Senator Tester. We are talking about the ability to find a 
grave online----
    Mr. Metzler. That is only part of the system, sir.
    Senator Tester. But it is a pretty darn important part of 
the system.
    Mr. Metzler. Yes, it is. Yes, it is.
    Senator Tester. All right. I want to thank the Chairman.
    Mr. Metzler. And I would tell you that every burial we have 
done since 1999 is part of that VA system now and you can go 
into their National Gravesite Locator from April 1, 1999 
forward and find our burials at Arlington Cemetery in their 
system, as well.
    Senator Tester. OK. I have to ask this. What you are saying 
is you can go on the VA website right now from 1999 to 2010 and 
find who is buried in Arlington National Cemetery?
    Mr. Metzler. If they have ordered a government headstone 
from the VA, it will be in their system.
    Senator Tester. So what you are saying is these 211 IG mis-
buried graves are on the VA website and they are correct?
    Mr. Metzler. I don't know that I could say that the way you 
said it, sir.
    Senator Tester. Thank you very much.
    Senator McCaskill. Senator Carper.
    Senator Carper. Thanks very much.
    Let me just ask you to back up a little bit. I was not here 
for your testimony and for the first part of the questions. Let 
me just ask of you, if I can, Mr. Metzler, what went wrong? 
What has been done to fix what went wrong? What remains to be 
done? Who needs to do it?
    Mr. Metzler. Wow. What went wrong is that from the very 
beginning, we found that the IT automation process was full of 
difficult turns and twists in the process to accomplish. We 
started out with trying to do an initiative and found out that 
we needed to do a 300 report to OMB. Anytime you had an IT 
initiative of more than a half-million dollars, this report had 
to be placed in there ahead of time. So we had to stop the 
process--this was around 2003--and do this 300 report. That in 
itself took us over a year and a half to accomplish.
    Once we got that completed, then we got very little 
feedback from anyone, but we continued to go forward and try to 
automate. We started out by scanning the records, the existing 
records in the Cemetery to get them into an automated system 
and at the same time try to develop the internment scheduling 
system, which was the biggest driving factor for us at 
Arlington Cemetery at the time, trying to automate the daily 
burials that we were doing so that we would make no mistakes in 
who we were burying that day as far as military honors, 
gravesite location, and get away from the paper and pencil 
issue.
    But as we got into that particular system, our staff 
continued to ask for more and more upgrades to that system. We 
were successful and able to upgrade it one time. We were in the 
process of automating a second time and then making a more 
complex system, making a robust system that was Internet-based 
and that we could send the information out to all government 
agencies, the military, the Chaplain's Office, and such who 
needed this, and we were in that process.
    If I could use a baseball analogy, I believe we were on 
third base and ready to come home and finish this system when 
all of the inspections and the allegations were made and it 
stopped the finishing--the development of that particular 
system.
    So right now, we are on hold. Until we can get that 
released and get that system finished, nothing else will be 
accomplished in automation unless you scrap the old system and 
start all over again.
    Senator Carper. Let me follow up on your baseball analogy. 
Let us say we are in a rain delay, OK. We have a runner on 
third base and the game is on hold. When the rain stops and 
when the game resumes, what do we need to do? Who needs to do 
it?
    Mr. Metzler. What we need to do is get in with the 
contractor who has the base knowledge of the ISS upgraded 
system and finish that system, do the beta testing to be sure 
that we have captured all the initiatives that the staff at the 
Internment Services Office wants, and then implement that 
system. That will be a great improvement, and that is just the 
base, if you will, of the TCMS system. But that is one of the 
big cornerstones in getting that accomplished. And then the 
next thing would be to integrate the records that have already 
been scanned into that system.
    Senator Carper. Who needs to do those things?
    Mr. Metzler. I think most of that stuff can be done by 
contractors. Now, the bigger issue is, and I think this goes to 
the heart of the questions that Senator Collins was asking 
earlier, is the triple-validation, and I think this is a 
challenge with all older cemeteries, like Arlington, is the 
information on the headstone, the information on the paper 
records, and the information on the map all need to be cross-
checked to be sure every document is accurate.
    Senator Carper. What does the Congress need to do?
    Mr. Metzler. Work with the Army, support this initiative 
financially, and help us, help the Army to get this system back 
off of rain delay and get it completed, sir.
    Senator Carper. All right. In light of the significant 
number of improperly marked and unmarked graves, could you just 
share with us what has been done to reach out to the families 
of the deceased?
    Mr. Metzler. In cases where we know that the family has had 
a question, then they would be contacted. If the family has 
called into the Cemetery with a question, that research, to my 
knowledge, is currently being done, and then a follow-up phone 
call would be done to the families and tell them whatever 
information was found out to allay their concerns.
    Senator Carper. All right. I understand that there is a 
Section 27 at Arlington. Could you take a moment and tell us, 
what is the historical significance, if you will, of Section 
27?
    Mr. Metzler. Section 27 used to be called the Lower 
Section, and it was the original burial area of the Cemetery 
before it had a designation as Section 27. It is where the 
Cemetery started in May 1864. William Christman, the first 
person buried in Arlington Cemetery, described as a hapless 
recruit who died after 3 months in the military from 
peritonitis, was buried there in May 1864. So the Cemetery's 
original burials from the Civil War, during the Civil War time, 
were in Section 27.
    Also, in another part of the Section 27, the former 
residents of Freedman's Village are buried, about 3,500 
individuals who were on the grounds of Arlington Cemetery from 
around 1863 to 1890. These were African-Americans who were 
displaced as a result of the Civil War. The government had 
opened up a series of camps or villages here in the Washington 
area. One of them was on the grounds of Arlington Cemetery. And 
unfortunately, a lot of these individuals who were residents of 
this village passed away from disease, natural causes, and they 
were buried also in Section 27.
    Senator Carper. All right. I am told that this section has 
suffered a considerable amount of neglect over the years. First 
of all, I want to ask you if that is true. But I think it was 
about 20 years ago that the Congress ordered the Arlington 
National Cemetery to improve the grounds and to try to restore 
the burial records. Among the folks that were there, I 
understand some African-American Civil War soldiers, but I am 
told that little has been done. And in addition----
    Mr. Metzler. Well, that is not correct, sir, at all.
    Senator Carper. I will let you respond to that, but in 
addition to addressing the burial problems in the newer parts 
of the Cemetery, what has been done to fix what were believed 
to be significant problems in Section 27?
    Mr. Metzler. Section 27, when I first got to Arlington, the 
middle part of the section--it is a long, narrow section--the 
middle part of the section, an experiment had been done by the 
previous Cemetery Superintendent there for flat markers. This 
was an initiative that was being worked on in the National 
Cemetery System. All their new cemeteries that they were 
opening back in the 1980s were all flat markers. So for 
whatever reason, the former Superintendent decided to try flat 
markers. It was supposed to be ease of maintenance and better 
mowing, easier mowing.
    It didn't seem to be too successful in the VA. They walked 
away from it, and around 1992, when I was doing one of my 
appropriations hearings with Congressman Stokes, who I believe 
was the Chairman at the time, brought to my attention that he 
felt that this was incorrect at Arlington Cemetery and asked us 
to change the headstones from flat markers back to upright 
headstones, which we did.
    At the same time, he asked us to look at the trees at the 
Cemetery. The trees had been allowed to grow all the way to the 
ground, so you had branches that were on the ground over 
headstones, covering headstones and such, and we changed the 
maintenance cycle at the Cemetery and lifted the trees up to 
about a six-foot height so you could walk under a tree and the 
tree limbs would no longer be bowing down over the headstones. 
So all that was accomplished between 1993 and 1994, and Section 
27 today receives every bit as maintenance as every other 
section of the Cemetery.
    Senator Carper. All right. Thank you. Thanks for those 
responses.
    Mr. Metzler. You are welcome.
    Senator Carper. Madam Chairman, thank you for holding this 
hearing.
    Senator McCaskill. Thank you, Senator Carper.
    Mr. Higginbotham, when did you first realize that there 
were mismarked graves, unmarked graves, improperly marked 
graves at Arlington National Cemetery?
    Mr. Higginbotham. Well, ma'am, having been a Cemetery 
Representative back during the Vietnam War, doing funerals, it 
was always--I can't pinpoint a date and time, but it was always 
to me conceptual that anything done by hand for 140-plus years, 
there has to be some errors somewhere.
    Senator McCaskill. Well, I am not asking about conceptual 
and I am not asking for an isolated error. I am asking you what 
year--let me just ask the question this way. The documentation 
that we have developed for this hearing would indicate that you 
had personal knowledge of unmarked graves or mismarked graves 
in 2003. Would you disagree with that?
    Mr. Higginbotham. I am not sure of the date, but if it is 
in the report, that was probably what was looked at. I am not 
sure.
    Senator McCaskill. And Mr. Metzler, you testified earlier 
when I was asking you that 5 years ago, you were aware of urns 
with cremated remains in them that had been found in the fill 
area of the Cemetery?
    Mr. Metzler. That is correct.
    Senator McCaskill. So at that moment, you knew that 
someone's remains had been dug up and dumped somewhere in the 
Cemetery without the people knowing they were digging up 
remains and not realizing they were dumping a family member's 
remains in another part of the fill area of the Cemetery that 
was unmarked. It was just in with the dirt, correct?
    Mr. Metzler. That is my understanding, yes.
    Senator McCaskill. OK. So in 2003, Mr. Higginbotham, you 
knew there were mistakes that had been documented that 
reflected a lack of procedures of keeping track of where people 
were being buried in an accurate fashion. And in 2005, Mr. 
Metzler, you knew that there were urns that had been uncovered 
in the fill area of the Cemetery. Now, when you found those 
urns, Mr. Metzler, what did you do?
    Mr. Metzler. We looked at the urns and we examined them to 
figure out if we could determine where they belonged in the 
Cemetery.
    Senator McCaskill. And did you?
    Mr. Metzler. No. We could not--there were no markings on 
the urns. There was nothing that would lead us to identify who 
these remains belong to.
    Senator McCaskill. So you had no idea who they were?
    Mr. Metzler. That is correct.
    Senator McCaskill. And to this day, you have no idea who 
they are?
    Mr. Metzler. That is correct.
    Senator McCaskill. All right. So did you think to yourself, 
we have a problem here?
    Mr. Metzler. Yes, I did.
    Senator McCaskill. And I assume you went right up to the 
Appropriations committee and to OMB and to the Army Chief of 
Staff and say, ``We have a crisis? ''
    Mr. Metzler. I did not.
    Senator McCaskill. We have urns being dug up that are 
unidentified and they have been dumped, and we have to get on 
this because this could be occurring in every single section of 
the Cemetery?
    Mr. Metzler. I did not do that, ma'am.
    Senator McCaskill. And what about you, Mr. Higginbotham? 
When you realized you had this problem as early as 2003, what 
action did you take? Did you go to Mr. Metzler? Did you send 
him a memo and say, ``We have a crisis and we need to start 
examining every section of this Cemetery to find where these 
problems exist? ''
    Mr. Higginbotham. That is exactly what we did. The triple-
validation that Mr. Metzler referred to in the previous 
question was the best way that I personally know. I presented 
to him as an idea of how we could validate each gravesite in 
the Cemetery. That program would go out with a hand-held 
device, go to each gravesite, look at the headstone, the grave 
card, the burial record, and the map to validate all four of 
those sources, and then once that is done, we would then know, 
are there other errors out there.
    Senator McCaskill. So you are testifying that you went to 
Mr. Metzler in 2003 and said, ``We need to do quality 
assurance.'' We need to do some kind of survey and determine 
the mistakes that have been made in this Cemetery.
    Mr. Higginbotham. No. I am saying that we as an 
organization realized that was what we needed to do, to 
validate gravesites. That was presented to OMB in our plan for 
the future, to----
    Senator McCaskill. Did Mr. Metzler know that you were aware 
of mistakes that were being made throughout the Cemetery in 
terms of the failure to properly mark graves or to make 
mistakes in the marking of graves?
    Mr. Higginbotham. Yes.
    Senator McCaskill. So you knew in 2003, Mr. Metzler?
    Mr. Metzler. I did not know about a grave in 2003. It was 
brought to my attention a little bit later than that.
    Senator McCaskill. So you are saying that Mr. Higginbotham 
is not being truthful, then, that he brought to you the 
problems that he knew as early as 2003 about the way the graves 
were being handled at Arlington National Cemetery?
    Mr. Metzler. Well, there was one particular grave in 
Section 67 or 68 that I believe 2003 was the original date that 
discrepancy was----
    Senator McCaskill. So in your earlier testimony when you 
said you first found out about it when the Inspector General 
issued his report a month ago, that was not correct, your 
earlier testimony. You knew in 2003 that there was a mistake--
--
    Mr. Metzler. I was trying to understand your question, 
ma'am. I will go back to my earlier. When something is brought 
to my attention, I correct it at that point.
    Senator McCaskill. Well, let us be honest here. I mean, 
really, what has happened here is employees at the Cemetery 
finally had enough and they went to Salon.com and Salon did an 
expose on what was going on at Arlington. And then the 
Inspector General, as a result, went out and just did three 
sections. Mr. Metzler, you say the maps are correct now. They 
are only correct for three sections and those are the three 
sections that the Inspector General looked at. You didn't look 
at those sections, even though you knew as long ago as 2003 
that you had significant problems----
    Mr. Metzler. No, ma'am----
    Senator McCaskill. Five years ago, you knew you had 
unidentified urns that were turning up in the fill and you 
didn't go and try to do any kind of survey and determine what 
was going on. This happened. We are here today because people 
who worked for you had enough and they blew the whistle and 
somebody wrote an article about it, and finally the Army woke 
up and realized nobody was paying attention at Arlington and 
they went in and they looked and they found in three sections 
several hundred graves. And how many sections are at Arlington, 
Mr. Metzler?
    Mr. Metzler. Seventy sections.
    Senator McCaskill. All right. So we have done 3 out of 70.
    Mr. Metzler. That is correct.
    Senator McCaskill. And there is no indication we don't have 
the same problem in the other 67. None. So really, what 
happened here is you all just decided if you didn't talk about 
it--and do you honestly believe, Mr. Metzler, if you would have 
come to Congress and said, ``We have a crisis.'' We immediately 
need resources and manpower so we can check the Cemetery, 
because we are afraid that we have lost bodies of our heroes, 
that we have lost the bodies of our fallen heroes, we have 
cremated remains that we don't even know who they belong to 
turning up in the fill, did you ever write that up? Did that 
ever go up the chain of command? Did the Chief of Staff of the 
Army ever see a document from you that we have a problem? We 
found cremated remains and we don't know where they belong.
    Mr. Metzler. No----
    Senator McCaskill. Did that ever occur, Mr. Metzler?
    Mr. Metzler. We annotated the records. We buried the 
remains as unknowns in the Cemetery. I did not send a memo up 
to the Chief of Staff of the Army.
    Senator McCaskill. This is, with all due respect, this is 
not about a lack of resources. This is not about that you have 
a complicated job. You have a very important job, and I agree 
that it is stressful and you have a lot of burials and there is 
a lot of protocol. But this is not complicated. It is called 
keeping track of who you bury where. That is not a complicated 
task.
    And the notion that you would come in here and act as if 
you didn't know about it until a month ago is offensive. You 
did know about it and you did nothing. And you knew about it, 
Mr. Higginbotham, and you did nothing, and that is why we are 
here. And now somebody is going to come along and clean up this 
mess and families have been hurt for no good reason. If you 
would have sounded the alarm the minute you realized you had 
this kind of problem, I think we would be in a much better 
position now than we are today. Senator Brown.
    Senator Brown. Thank you, Madam Chairman.
    So just getting back to the BOSS system a little bit, I am 
just trying to focus on this IT issue. You said that you didn't 
use the BOSS system because of many different reasons. I am 
trying to still kind of figure it out. But in the TCMS program, 
it has a records database, correct?
    Mr. Metzler. Yes, it does.
    Senator Brown. Well, so does the BOSS system, right?
    Mr. Metzler. Yes, it does.
    Senator Brown. And you also have in the TCMS, you have 
gravesite capability, gravesite inventory capability.
    Mr. Metzler. That is correct.
    Senator Brown. And so does, obviously, the BOSS system. And 
then you also have infrastructure upgrades in your system?
    Mr. Metzler. That is correct.
    Senator Brown. They have it also in the BOSS system, 
correct?
    Mr. Metzler. I am--now, I am not----
    Senator Brown. I will make it easy. They do.
    Mr. Metzler. OK. I will take your word on it.
    Senator Brown. And they have a project management system in 
the TCMS, correct?
    Mr. Metzler. Yes.
    Senator Brown. They also have it in the BOSS system. They 
also have a GIS in your system, correct?
    Mr. Metzler. Yes.
    Senator Brown. And it is also in the BOSS system. So you 
are saying that it is not capable, that you couldn't adapt it. 
What is the difference? What wasn't working? Where was the 
breakdown?
    Mr. Metzler. The scheduling was the biggest challenge that 
we had.
    Senator Brown. So you have a system that is compatible--I 
just listed five or six things--and the only difference is 
because of the scheduling, and I want to just, because you have 
flyovers, you have honors, the ceremonial significance of that. 
So the only difference was scheduling.
    Mr. Metzler. That was the first major difference that we 
saw that we couldn't overcome.
    Senator Brown. Well, what were the other differences, then?
    Mr. Metzler. Well, our system was going to be Internet-
based so that we could provide the same information to all 
branches of the military----
    Senator Brown. Well, theirs is, too. We can go right online 
right now. I mean, theirs is on the Internet. So what is the 
difference?
    Mr. Metzler. No, sir. Our information would be sent--the 
time that--whenever we took a funeral application and completed 
it and when the system, our system would then push that 
information out through an email message to the Army, to the 
Navy, the Air Force, Coast Guard, Marines, the Chaplain's 
Office, to anyone who was involved in that particular funeral. 
And then as updates came along with that funeral, the same 
thing would happen. The information would be pushed out to 
the----
    Senator Brown. So there is a scheduling and an email 
capability issue between the two systems. So I have two basic 
changes, scheduling and email capabilities. Was there anything 
else that was different?
    Mr. Metzler. Well, the other item that was different is the 
maps were going to be posted electronically with each burial, 
the gravesite layout maps. When you do a burial, the first 
document that is produced is a record of internment. The next 
document that is produced is the grave survey card. And the 
next thing is posting the map. All that would have been done 
electronically with our system.
    Senator Brown. Well, the cost for the BOSS system was $1.2 
million. The cost for your system is approximately $10 million 
and it isn't even up and running yet. It is not--it has 
basically 60,000 people, I think you told us earlier, that have 
actually been inputted into the system, and you are on third 
base and you are going to bring it home soon but for the fact 
that you have had to do all these other things. Aside from 
email, scheduling, and maps, we are paying three times as much 
for a system that is already being used by an entity that has a 
tremendous amount more in terms of the data and accuracy of 
records than you do. How do you explain that?
    Mr. Metzler. Well, sir, I don't know how the VA developed 
its numbers. I know that the VA has a dedicated IT staff----
    Senator Brown. So you don't have an IT staff at all?
    Mr. Metzler. No, sir, I do not have an IT staff.
    Senator Brown. Have you ever requested an IT staff or IT 
capability or any assistance at all?
    Mr. Metzler. What we have requested is through contract 
support.
    Senator Brown. Well, did you get that contract support?
    Mr. Metzler. I mean, we requested IT programs through 
contracting.
    Senator Brown. Well, programs. Did you get the actual 
people to come and help you----
    Mr. Metzler. No, sir. We have not requested IT staff on 
board at the Cemetery.
    Senator Brown. Well, you have over 300,000 honored dead in 
the Cemetery. You have a $10 million plan here and you have 
asked for contracts, but you haven't asked for the staff to 
help implement the----
    Mr. Metzler. We were working to have the staff to support 
the contracts to be a contractor.
    Senator Brown. You have been there for how many years?
    Mr. Metzler. I have been here for 19 years.
    Senator Brown. So when were you going to get around to 
asking for the way to implement the programs that you are 
trying to do?
    Mr. Metzler. We have been in that process, I would say, for 
at least the last 5 years, trying to get this accomplished.
    Senator Brown. How? If you haven't made the request, how 
have you been trying to get it accomplished?
    Mr. Metzler. [No response.]
    Senator Brown. Your silence speaks for itself, because it--
--
    Mr. Metzler. No, I am trying to come up with--I am trying 
to answer your question here, sir. Just give me a second.
    Senator Brown. I will tell you what. I was an attorney 
before I came here. I will tell you, this would be--I would 
have a lot of fun with you in a deposition because I don't feel 
we are getting the straight talk here.
    And let me just, while you are thinking, I will just shoot 
to you, Mr. Higginbotham. I am looking at some of the 
contractors. We had an OFI Solutions and Alphatech Interactive 
Design. These are digitized records, geographic info systems. 
One is $1.1 million. The contractor was paid but we can't 
confirm if it was, in fact, deliverable. On the geographic info 
system, Interactive Design, $226,000, contractor paid. Cannot 
locate deliverable. Do you have any knowledge of actually 
whether they delivered what we paid them for yet?
    Mr. Higginbotham. After consultation with counsel, I will 
assert my Fifth Amendment rights to that question, sir.
    Senator Brown. OK. Let me then ask another question, 
because I have enjoyed your forthright responses. I am just 
asking if you knew if it was deliverable or not. Were you 
responsible for signing contracts or negotiating them or 
awarding them in any way?
    Mr. Higginbotham. After consultation with counsel, I assert 
my Fifth Amendment rights to that question.
    Senator Brown. Madam Chairman.
    Senator McCaskill. Let the record reflect that you have 
availed yourself of the privileges afforded you under the Fifth 
Amendment of the Constitution not to give testimony that might 
incriminate you. The Subcommittee respects your constitutional 
right to decline to answer questions on that ground and you are 
excused.
    Senator Brown. Thank you, Madam Chairman.
    Mr. Metzler, on June 11, the Army at the direction of your 
replacement established a telephone number for the family 
members to call for any problems concerning a loved one's 
remains. Why does it take the Army to have to set up a 
telephone number to find problems when this is supposedly 
something that you had been working on for quite a while, 
identifying and reaching out to the families?
    Mr. Metzler. Sir, I would address any issue that was 
brought to my attention. Up to that point, I knew of no family 
that had any concerns at Arlington Cemetery. Every issue that 
was brought to my attention was dealt with immediately.
    Senator Brown. I can't ask any more questions, Madam 
Chairman. I will wait for the next panel. Thanks.
    Senator McCaskill. Senator Collins.
    Senator Collins. Thank you, Madam Chairman.
    Mr. Metzler, was Mr. Higginbotham responsible for the 
management of the information technology efforts at the 
Cemetery?
    Mr. Metzler. Yes, ma'am. He was my designated person to 
work on that program.
    Senator Collins. Were you aware that at least $200,000 had 
been spent for the development of an Internment Scheduling 
System Version 2 even though a product had never been 
developed----
    Mr. Metzler. I was----
    Senator Collins [continuing]. And delivered?
    Mr. Metzler. I was under the--aware that process was--that 
program was under development. Yes, ma'am. I was aware that was 
almost completed, and it was stopped, and I guess I shouldn't 
have used the baseball analogy, but that was what I was 
referring to. That program was being updated and had almost 
been completed when the investigation started, and that stopped 
everything dead in its tracks.
    Senator Collins. What is your assessment of the information 
technology contracts that the Cemetery entered into?
    Mr. Metzler. I am not very familiar with that, ma'am. That 
is really the contracting officers' responsibility. I just have 
a very general knowledge of it.
    Senator Collins. Were you aware that millions of dollars 
were being spent on the IT contracts and yet you were not 
receiving the workable products that you needed?
    Mr. Metzler. I was aware that various contracts had been 
awarded and that elements were being completed, such as the 
scanning of the records, such as the wiring of the Cemetery. 
One point I would make is that prior to 1991, or prior to 2001, 
excuse me, September 11, 2001, the Cemetery was not wired. So 
we were still on dial-up modems and working with T-1 lines. So 
part of our automation effort was to wire the Cemetery and to 
bring us into the Internet.
    Senator Collins. Who was the contracting officer for the IT 
contracts?
    Mr. Metzler. I believe it was split between the Baltimore 
Corps of Engineers and the Army's Contracting Center for 
Excellence (CCE).
    Senator Collins. Were you ultimately responsible for the 
execution of these contracts, or was that your deputy's 
responsibility? Who was responsible----
    Mr. Metzler. The contracting officer is ultimately 
responsible.
    Senator Collins. The contracting officer.
    Mr. Metzler. They are the individuals who sign the 
contract, can authorize payments, modify contracts----
    Senator Collins. Did you ever suggest to the contracting 
officer that perhaps payments should be withheld since you were 
not getting the deliverable products that had been contracted 
for?
    Mr. Metzler. I did not make that suggestion. Mr. 
Higginbotham, again, was my representative, and I had trust in 
him that he was working this problem.
    Senator Collins. What I am trying to get at is in your 
opening comments, you talked about the amount of money in your 
budget, which did go up considerably over the past decade, was 
not going for staff but rather was going for IT contracts and 
for construction. So as a manager, since you are not happy with 
the results of the IT contract and a lot of the budget increase 
was going for that purpose, did you alert the Army chain of 
command that budget priorities were not appropriate and should 
be changed?
    Mr. Metzler. Well, ma'am, our budget priorities were 
working the Cemetery and the appearance of the Cemetery and 
what we would call the fixed costs, and the majority of our 
money each year, around $25 million, went to what we would call 
fixed costs--turning on the lights, paying the employees, 
paying contractors to maintain the Cemetery, and repetitive 
maintenance. We did have some increases for construction. Yes, 
we did have some IT initiatives, also, in several million 
dollars. To my knowledge, right now, there is about somewhere 
in the neighborhood of $3.5 million unspent in IT money sitting 
either at the Cemetery right now in this year or sitting up at 
Baltimore and has not been executed.
    Senator Collins. Doesn't that trouble you? You say that you 
are short on personnel, that you had a staffing reduction of 35 
percent, and yet you have millions of dollars just sitting 
there for IT projects that have not come to fruition?
    Mr. Metzler. Yes, ma'am, it does bother me, but 
unfortunately, with the inspections that were going on, every 
initiative was put on hold and we could not continue our 
automation effort.
    Senator Collins. We have talked a lot about the fact that 
the Veterans Administration has an Automated Cemetery 
Management System. Why couldn't that be adapted to Arlington 
Cemetery?
    Mr. Metzler. Well, we did work on it for 2\1/2\ years. We 
tried it. We worked it daily into our scheduling system. And we 
just kept coming up with one flaw after the next. The 
scheduling was the biggest challenge that we had.
    At Arlington Cemetery, we use all five branches of the 
military to assist us in providing military honors. Each branch 
of service have different requirements each day, so they are 
not always available to Arlington Cemetery. All that 
information was put into a manual system.
    We were now trying to automate that so that when we put in 
a burial request in our system for someone who called in today, 
that it would tell us automatically if an element was available 
or not available for the military to support that funeral. The 
BOSS system couldn't accomplish that, and when we asked the VA 
to try to modify that part of the scheduling system, they were 
reluctant to change their system that was supporting 130 
cemeteries, to change it just for Arlington. And that was the 
critical element, if you will, for Arlington Cemetery, is 
military honors is what distinguishes Arlington from the other 
services.
    Senator Collins. I understand that, but it seems to me that 
the VA's system, despite its deficiencies, is better than the 
paper system that you are now using. Do you disagree with that?
    Mr. Metzler. No, ma'am, I do not disagree with you. But we 
are trying to automate our system and that was the process that 
we were going through, through the ISS.
    Senator Collins. But why not take the VA's system, which 
clearly meets some, although not all, of your needs and then 
customize it for the part that is different between Arlington 
and the VA Cemeteries?
    Mr. Metzler. The VA system was not an Army system. It was 
the VA system. I could not export that system into the Cemetery 
and then modify it.
    Senator Collins. Well, given the amount of money that you 
are spending to develop a new system, I have to believe the 
contractor would have been willing to license that system to 
you. You clearly were trying it out, at least. This just sounds 
like bureaucracy at its worst as far as taking a practical 
approach to the problems.
    Madam Chairman, I know the vote is on and my time has 
expired, but thank you.
    Senator McCaskill. Thank you.
    We do have a vote right now, and Mr. Metzler, there are a 
number of other questions that we have about contracting, but 
we are going to go to the second panel and we will direct those 
questions to you in writing for the record at a separate time. 
And there are not a lot of them left. I think we have covered 
the ground. I think, primarily, the questions that remain are 
this notion that the BOSS system was not adequate for purposes 
of locating and memorializing where bodies were located and why 
a separate scheduling system could not have been layered on top 
of that would have fit your needs.
    I will just say that our records show, in preparation for 
this hearing, that Veterans Affairs says they were more than 
willing to work with you, and we have a specific communication 
from them in writing saying that they were willing to work with 
you and try to do whatever was necessary to make the BOSS 
system work for you.
    Mr. Metzler. Well, ma'am, that is a changing attitude with 
the VA. I personally called their Chief of Technology. I 
personally called their Under Secretary and asked to see if 
that could have been done years ago and they were reluctant to 
do it at that time----
    Senator McCaskill. Do you have any documentation of that, 
Mr. Metzler?
    Mr. Metzler. No, ma'am, other than the phone call that I 
made myself.
    Senator McCaskill. OK. Well, it would seem that something 
as important as whether or not you are going to embark on a 
multi-million-dollar purchase because an existing system is not 
adequate, it seems to me that ought to be something that is put 
in writing. It seems to me that is something that should have 
been worked up through the chain of command, the head of 
Veterans Affairs, the Chief of Staff of the Army.
    The notion that the taxpayers had invested in a system that 
works perfectly well for the identification of burial remains, 
that it was not utilized, it seems to me that is more than a 
phone call. It seems to me that is something that needs to at 
least be memorialized in writing. The fact that it wasn't, I 
think, damages your credibility in this regard, that there 
really was an effort to use the existing system that is 
operating without a flaw today while we sit here among this 
mess--in this mess.
    I appreciate your testimony today. I appreciate your 
appearance and I will go ahead and ask the second panel to come 
to the table for testimony. We will go ahead with your opening 
statements, and when my colleague or colleagues get back from 
the floor, I will leave to go cast my vote and then come back 
to question the panel.
    Let me introduce the second panel as you all take your 
seats. Mr. Edward Harrington is the Deputy Assistant Secretary 
of the Army for Procurement. Mr. Harrington is a former senior 
U.S. Army officer with over 28 years' experience in weapon and 
information systems lifecycle acquisition, contracting, 
contract management, and military logistics operations 
worldwide.
    Claudia Tornblom is the Deputy Assistant Secretary of the 
Army for Management and Budget in the Office of the Assistant 
Secretary of the Army for Civil Works, where she has served 
since 1987. In this capacity, Ms. Tornblom is responsible for 
policy direction governing development and implementation of 
the civil works budget and supports the Executive Director of 
the Army National Cemeteries Program, including policy 
oversight of construction projects for future development of 
Arlington National Cemetery. Prior to this position, Ms. 
Tornblom served at the Office of Management and Budget.
    Kathryn Condon is the recently-appointed Executive Director 
of the Army National Cemeteries Program. As the Executive 
Director, she exercises authority, direction, and control over 
all aspects of the Army National Cemeteries Program. In this 
capacity, she is responsible for both long-term planning and 
day-to-day administration and operations of Arlington National 
Cemetery and the U.S. Soldiers' and Airmen's Home National 
Cemetery. Ms. Condon has held several other military positions, 
including the Civilian Deputy to the Commanding General, U.S. 
Army Materiel Command.
    Thank you for being here, all of you, and it is the custom 
of this Subcommittee to take testimony under oath, so I would 
ask you to stand.
    Do you swear that the testimony that you will be giving 
before this Subcommittee will be the truth, the whole truth, 
and nothing but the truth, so help you, God?
    Mr. Harrington. I do.
    Ms. Tornblom. I do.
    Ms. Condon. I do.
    Senator McCaskill. We appreciate you being here and you may 
be seated.
    We will begin with you, Mr. Harrington. We have 5 minutes 
allotted for each one of your statements. We are welcome to 
take more information into the record. And then we will follow 
up with questions after all three of you have given your 
opening statements. Mr. Harrington.

    TESTIMONY OF EDWARD M. HARRINGTON,\1\ DEPUTY ASSISTANT 
 SECRETARY OF THE ARMY (PROCUREMENT), OFFICE OF THE ASSISTANT 
 SECRETARY OF THE ARMY (ACQUISITION, LOGISTICS AND TECHNOLOGY)

    Mr. Harrington. Madam Chairman, Senator Brown, and Members 
of the Subcommittee on Contracting Oversight, thank you for the 
opportunity to appear before you today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Harrington appears in the 
appendix on page 67.
---------------------------------------------------------------------------
    I am here today to provide an overview of the U.S. Army's 
review of contract actions supporting Arlington National 
Cemetery. Let me state at the outset that the Army is fully 
committed to rapidly correcting the contracting deficiencies at 
and for the Arlington National Cemetery.
    As the proponent for the Army's Procurement Management 
Review Program, I am determined to oversee timely correction of 
these deficiencies, which will ensure that contracting for the 
Arlington National Cemetery will be conducted in accordance 
with Federal, Defense, and Army acquisition regulations, and in 
a manner that respects and honors the service and sacrifice of 
our fallen warriors and their loved ones.
    On June 10 of this year, Secretary McHugh issued a 
directive to enhance the operations and oversight of the Army 
National Cemeteries Program. Based on the Secretary's guidance, 
I directed a Procurement Management Review to evaluate the full 
range of contracting activities, from requirements definition 
through contract close-out. This Procurement Management Review 
was conducted on site at the Arlington National Cemetery, the 
Corps of Engineers Baltimore office, and the Contracting Center 
of Excellence here in Washington, D.C. It focused on the 
government Purchase Card records, Memorandums of Understanding, 
military interdepartmental purchase requests, interviews with 
the staff and leadership involved in the procurement process, 
and all available contract documentation.
    This PMR analyzed more than 500 contracts worth 
approximately $46 million awarded between 2005 and 2010, as 
required by the Secretary's directive. The Procurement 
Management Review team selected 114 contracts for detailed 
review. Of these contracts, 34 construction, IT support, and 
services contracts awarded by the Corps of Engineers Baltimore 
office represent roughly $34 million in value. The remaining 
contracts, valued at approximately $12 million, were awarded by 
the Contracting Center of Excellence for supplies and services, 
including IT, grounds maintenance, facilities, construction, 
and miscellaneous items.
    The U.S. Army Inspector General's Special Inspection of the 
Arlington National Cemetery listed a number of deficiencies in 
contracting procedures and made recommendations based upon 
those deficiencies. The Procurement Management Review 
substantiated a number of findings in these areas that were 
highlighted in the Army IG's report.
    Madam Chairman, my written statement provides further 
detail about the PMR findings. In summary, from requirements 
definition through contract closeout, there was a general 
breakdown in sound contracting practices, and statutory, 
regulatory, and policy requirements were not followed. The Army 
has identified the problems in regard to contracting and has 
initiated corrective actions. My office will continue to work 
closely with the Arlington National Cemetery, Contracting 
Center of Excellence, and Corps of Engineers leadership to 
ensure these corrective actions address root causes and confirm 
that these deficiencies will never be repeated.
    The Army will perform a follow-up Procurement Management 
Review early in fiscal year 2011 at all three sites and report 
the status of the corrective actions. Further, the PMR of these 
sites will continue again in fiscal year 2012 and all 
subsequent yearly cycles to make sure proper contracting 
practices have been ingrained.
    The U.S. Army is committed to excellence in all contracting 
activities. As Secretary McHugh has testified, the entire Army 
leadership is unequivocally committed to take every step 
necessary to correct yesterday's oversights and meet tomorrow's 
requirements.
    I request that my written statement be submitted for the 
record. This concludes my statement. I look forward to your 
questions. Thank you, Madam Chairman.
    Senator McCaskill. Thank you, Mr. Harrington. Ms. Tornblom.

TESTIMONY OF CLAUDIA L. TORNBLOM,\1\ DEPUTY ASSISTANT SECRETARY 
               (MANAGEMENT AND BUDGET), U.S. ARMY

    Ms. Tornblom. Madam Chairman, Members of the Subcommittee, 
I appreciate the opportunity to appear to testify before this 
Subcommittee today on matters related to management of 
Arlington National Cemetery. I am Claudia Tornblom, Deputy 
Assistant Secretary of the Army for Management and Budget in 
the Office of the Assistant Secretary of the Army for Civil 
Works.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Tornblom appears in the appendix 
on page 79.
---------------------------------------------------------------------------
    Under law and general orders, the Assistant Secretary for 
Civil Works is responsible for policy oversight and supervision 
of all aspects of the Army Corps of Engineers Civil Works 
Program. In addition, from 1975 until June 10 of this year, the 
Assistant Secretary was responsible for overseeing the program 
and budget of Arlington National Cemetery's account, which was 
called Army Cemeterial Expenses, and funds both Arlington 
National Cemetery and the Soldiers' and Airmen's Home National 
Cemetery.
    As Deputy for Management and Budget, I advised the 
Assistant Secretary on the general policy framework that guides 
the formulation, defense, and execution of both the Corps of 
Engineers civil works budget and the Arlington National 
Cemetery Program and budget. This included providing policy 
guidance from the Secretary, from the Executive Office of the 
President, and from Congress. This guidance and decisions 
regarding the annual budget established the standards of 
service to be maintained by the Cemetery. Day-to-day 
operational control and responsibility rested with the 
Cemetery.
    A budget priority over the last decade has been to advocate 
for the Secretary to receive sufficient--sorry, for the 
Cemetery to receive sufficient resources to carry out Army and 
administration policies. Those policies included improving 
service to the families of the deceased and visitors to the 
Cemetery, expanding burial capacity to keep the Cemetery 
available for new interments, and maintaining the grounds and 
facilities of the Cemetery to high standards of appearance and 
reliability.
    Historically, the Cemetery's budget has been formulated, 
defended, and executed separately from the Army's military 
budget and program. This longstanding separation developed at 
least in part because Congress provided appropriations for the 
Cemetery from outside the Defense Appropriations Act.
    One of the projects in the Cemetery's 10-year capital 
investment plan was an automation plan called the Total 
Cemetery Management System, or TCMS. The goal of TCMS, which 
has not been realized, was to automate burial records and 
gravesite records and maps to support project and financial 
management and to aid in the management of Cemetery operations, 
including the scheduling of services and ceremonies.
    A critical part of this program you have heard a little bit 
about is called triple-validation. This process was to involve 
a full review of burial records, maps, and actual information 
engraved on the headstones in order to identify and reconcile 
discrepancies. Although the historical records from 1864 to 
1999 were scanned to ensure their preservation, the follow-on 
steps of data entry into a retrievable system and validation of 
the data did not proceed as intended.
    The Army has provided three reports to Congress on the 
Cemetery Automation Plan in 2005, 2007, and 2010. The 2007 
report noted that there were discrepancies in burial records, 
but it did not clearly describe the potential scope of that 
problem. The 2010 report identified a total of $10.3 million as 
having been spent on TCMS and related efforts. However, there 
are many questions, including my own, about the actual spending 
on the Cemetery's automation, and I would say, in retrospect, 
those reports were overly optimistic about what was being 
accomplished.
    Ms. Condon has most appropriately asked the Army Audit 
Agency to conduct a full review of the Cemetery's budget 
process, including an accounting of the funds spent on TCMS and 
related activities.
    Madam Chairman, Members of the Subcommittee, I hold 
Arlington National Cemetery in the highest regard as the 
Nation's premier burial place to honor all of those who served 
in uniform and those who have fallen in defense of their 
country. I have attended funerals at the Cemetery and seen 
firsthand the dignity and honor with which they are carried 
out.
    Through recent months, I have asked myself repeatedly, what 
might I have done differently that could have changed the 
outcome that is so distressing to all of us and has so 
disappointed the American people. Despite my best intentions, 
and, I believe, those of others involved in these matters, our 
combined efforts fell short of what the Army and the Nation 
expected of us. I deeply regret this.
    Since June 10, my efforts have been directed toward 
supporting the Executive Director of the Army National 
Cemeteries Program as she works to restore the public's 
confidence in the Army and in Arlington National Cemetery as an 
iconic symbol of the sacrifices of America's men and women in 
uniform.
    I thank the Subcommittee for this opportunity to report on 
my role in the oversight of Arlington National Cemetery.
    Senator Brown. [Presiding.] Thank you. Ms. Condon.

  TESTIMONY OF KATHRYN A. CONDON,\1\ EXECUTIVE DIRECTOR, ARMY 
             NATIONAL CEMETERIES PROGRAM, U.S. ARMY

    Ms. Condon. Madam Chairman, Senator Brown, and Members of 
the Subcommittee, thank you for the opportunity to testify. My 
name is Kathryn Condon, and on June 10, the Secretary of the 
Army appointed me as the new Executive Director of the Army's 
National Cemeteries Program. It is now my responsibility to 
provide the direct leadership and guidance and management for 
both Arlington National Cemetery and the Soldiers' and Airmen's 
Home National Cemetery.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Condon appears in the appendix on 
page 86.
---------------------------------------------------------------------------
    I want to start out by stating that all in the Army are 
deeply troubled by Arlington's dysfunctional management, lack 
of established policies and procedures, the unhealthy 
organizational climate, and regret the distress that this has 
caused our veterans and their families.
    From my first day on the job, when the call center was 
established to answer the concerns of family members regarding 
their loved ones' remains, to addressing the findings and 
recommendations for improvements at Arlington outlined in the 
Department of the Army's Inspector General reports, I have been 
charged to address and fix these and any other found 
discrepancies at Arlington.
    It has been my mission, along with the Acting 
Superintendent, Mr. Patrick Hallinan, to actively influence and 
improve Cemetery operations and to restore the faith and 
confidence of the American public in Arlington National 
Cemetery. Every day, we have been establishing new standard 
operating procedures, ranging from establishing new delegations 
of authority for fund certification and approvals, to 
developing and implementing new standards for marking and 
updating maps, to the assignment of gravesites, and to the 
proper handling of remains, as well as ensuring the accurate 
layout of interment sections.
    These changes have resulted in immediate improvements to 
Cemetery operations. With each day and with each issue, we are 
seeking ways to continuously improve all aspects of our 
operations at Arlington, to include the instructing and 
coaching of the staff to reach a higher standard of quality to 
maintain Arlington as our Nation's national shrine.
    In the last 50 days, we have laid to rest nearly 1,000 of 
our Nation's finest. You have my promise that I, along with Mr. 
Hallinan and each and every member of Arlington Cemetery, that 
we will provide our family members and our fallen heroes with 
the honors commensurate with their service and sacrifice.
    Thank you. I look forward to your questions, and I would 
like to submit my written statement for the record.
    Senator Brown. So noted. There will be no objections, but 
we will take it up again when the Chairman gets here so she can 
make sure it is done properly.
    We might as well just start in. She will be back. 
Obviously, we are in the middle of a vote.
    I know you are new, and I certainly welcome your addition 
and have expectations that you will be able to kind of get a 
handle on everything. Did you all hear the testimony prior, the 
panel before us?
    Mr. Harrington. Yes.
    Ms. Tornblom. Yes.
    Ms. Condon. Yes.
    Senator Brown. I have to admit, just as I was literally 
running down to vote, I was able to think. I do my best 
thinking when I am running. I just don't know--I don't think I 
got a straight answer, really, or if I got an answer, it seemed 
to be just whatever, and it bothers me greatly. I guess the 
question to you is the Army Inspector General investigation 
report found the 211 errors in that three-section part of 
Arlington. How confident are you that there are no other errors 
in the remaining part of the Cemetery?
    Ms. Condon. Senator Brown, in the last 50 days, Mr. 
Hallinan and I have found other map discrepancies in other 
sections of Arlington National Cemetery. So I am confident that 
there are probably other map errors that have not been 
annotated to date.
    Senator Brown. You heard my conversation back and forth 
about the VA system versus the system at Arlington and the fact 
that they had basically matching systems except for email, 
mapping, and scheduling. And I understand the ceremonial nature 
of obviously what happens at Arlington. Did you find that--and 
the fact that we paid $10 million for a system that is not 
really in effect yet. Did you find that troubling, that part of 
the conversation, that we have spent all this money and we 
don't have a system in place to accurately and properly verify 
and----
    Ms. Condon. Sir, I find that troubling, that we are still 
using paper records at Arlington National Cemetery.
    Senator Brown. So what is your plan?
    Ms. Condon. Sir, my plan--as you know, the Acting 
Superintendent, Mr. Pat Hallinan, was on loan for us very 
graciously from the Veterans Administration and what our plan 
is, we are going to look at the Veterans Administration BOSS 
system as well as looking at what we can find from the previous 
dollars that have been spent on the systems that were put on 
contract earlier.
    Senator Brown. I know there has been a request and even the 
VFW has stated that it is more important now than ever. It is 
not a question of who operates Arlington, but that they do it 
properly, and they are considering and others are thinking 
about transferring ownership to the VA. What are your thoughts 
on that?
    Ms. Condon. Sir, Arlington National Cemetery is both a 
national shrine and a military shrine, and as the previous 
panel did describe, the honors at Arlington are unique that 
other cemeteries do not have. And personally, sir, the 
dysfunctional management of the past was an Army responsibility 
and I think the Army should fix that and that is what I am here 
to do.
    Senator Brown. Thank you for that. The fact that there are 
ceremonies, obviously, in Arlington that are different than 
other cemeteries, do you think that was the--in listening, he 
said, well, the flyovers, the ceremonies, all these extra 
things that we do to bury our heroes, that is one of the 
reasons--it seems as if the main reason we were having all 
these filing problems and we couldn't properly color the maps 
with the crayons. Does that make any sense to you?
    Ms. Condon. Sir, frankly, I still, having only been on the 
job for a little less than 2 months, I am going to look at 
that, but no, that doesn't make sense to me. The scheduling of 
honors and ceremonies, we could probably work with the BOSS 
system, and I will promise that we will do that--
    Senator Brown. Thank you. And I know that the major 
deficiency identified in the Army Inspector General report was 
the fact that Arlington had not been formally inspected since 
1997. It was supposed to be done every 2 years. Why did the 
Army fail to follow its own regulations in that inspection?
    Ms. Condon. Sir, I do not know why the Army did not----
    Senator Brown. If you could maybe dig into it and let us 
know, that would be helpful.
    Ms. Condon. I will take that one for the record.
    Senator Brown. Ms. Tornblom, I understand in your role as 
the Deputy Assistant for Management and Budget, you are 
responsible for approving all civil works budgets. Is that 
accurate?
    Ms. Tornblom. For recommending approval to the Assistant 
Secretary, yes.
    Senator Brown. For the Total Cemetery Management System, 
the TCMS, and its subcomponents, how did you determine that 
budget estimates submitted by the Arlington National Cemetery 
were, in fact, accurate?
    Ms. Tornblom. Well, it is clear in retrospect that they 
were not as well-founded as they should have been, and 
obviously we didn't ask enough questions and we did not require 
verification and demonstration of all the things we were being 
told. But I do know that one of the main purposes of that 
program was, as was described earlier, the triple-validation 
program to make sure that there was consistency and accuracy 
among all the records.
    I understood the Chairwoman's question differently, 
perhaps, than Mr. Metzler did. We did know there were 
discrepancies and that is why the TCMS included the triple-
validation program.
    Senator Brown. But--did Mr. Higginbotham--did he report 
directly to you on----
    Ms. Tornblom. No, sir. No.
    Senator Brown. So did you have any knowledge of his 
involvement with any contracts or contractors or made 
recommendations for contractors to be used or approved by your 
department?
    Ms. Tornblom. No. We had no role in the contracting. I did 
work closely with Mr. Metzler and Mr. Higginbotham as we 
developed the program and then had periodic oversight of its 
execution, primarily the design and construction program, 
because that is where a lot of the money was in large contracts 
that the Corps of Engineers was carrying out.
    Senator Brown. So when you said we should have asked more 
questions, we should have done this, specifically, who and what 
support did you rely on to ultimately make your decisions and 
not take the extra steps to move forward, because as I am 
noting here, when Mr. Higginbotham took the Fifth, I started 
talking about some of these contracts that were paid, but we 
can't even confirm that these items have been delivered. Is 
that something that is in your purview, or somebody else's?
    Ms. Tornblom. No, sir, it is not.
    Senator Brown. Whose purview would that be under?
    Ms. Tornblom. Well, as Ms. Condon has reported and as the 
Secretary has previously testified, oversight of the Cemetery 
was fragmented and no one entity had full visibility of the 
activities.
    Senator Brown. So what is going to be done, do you think, 
in the future to kind of make sure that these things don't 
happen again?
    Ms. Tornblom. Well, the Secretary took the initial step of 
appointing Ms. Condon as the Executive Director and she has 
full support of everyone else in the Army to find out what the 
real problems are and get them solved, and I know she is 
dedicated to doing that and is moving forward.
    Senator Brown. I know in your discussions with the 
Subcommittee staff, you stated that in addition to your budget 
responsibilities over civil works and the two Army Cemeteries, 
that you were managing the programs at three organizations, but 
not involved in the actual contracting aspect, as you kind of 
hinted at right now. Can you explain in detail what your 
understanding of what your responsibilities were as a program 
manager, for example, on the Arlington National Cemetery's 
information technology systems?
    Ms. Tornblom. First, I want to clarify or correct something 
that I did say to the staff. I said I was a program manager, 
but what I was doing was distinguishing that from a project 
manager, because they were asking me project manager questions. 
As I left that discussion, I realized that I had not answered 
it correctly, because I am not a program manager, either. I am 
responsible for policy oversight of the Cemetery. The program 
manager for the IT program was Mr. Higginbotham.
    Senator Brown. Do you think that the IG report--do you 
agree, I should say, with the IG report that the IT decision 
making at Arlington National Cemetery should have--was left to 
an untrained employee such as Mr. Higginbotham and you think it 
should have been left to somebody who is more knowledgeable 
about the needs and parameters? Do you have any thoughts on 
that?
    Ms. Tornblom. Mr. Higginbotham spoke knowledgeably about 
the program and he was understood by most of us to be 
knowledgeable. I have no knowledge of whether he had the 
technical expertise or certification that should have been in 
place.
    Senator Brown. It is interesting. I noted in some of my 
papers up here in prior testimony from Mr. Metzler saying that 
he is understaffed, he didn't have the appropriate monies, he 
has been cut, but his budget has gone up dramatically over the 
years and seems like he didn't fight for any modification of 
those numbers, didn't come and let us know that there were 
issues that he was concerned about. Knowing that, it is my 
understanding that the Army Audit Agency is now conducting an 
audit of the money flowing in and out of the Cemetery.
    Before Congress appropriates any more money, we are on a 
pretty tight budget lately--for obviously the very worthwhile 
purpose of honoring our fallen, what can you do to ensure that 
independently audited financial statements have been provided 
to the public detailing the revenues and expenses of the 
Cemetery over the past few years? Either one.
    Ms. Condon. Sir, I will take that question.
    Senator Brown. Thank you, ma'am.
    Ms. Condon. What we are doing is our Army Audit Agency is 
doing a complete audit of all of the financials from the past 
and to this fiscal year, as well, because I started the job in 
the last quarter of this fiscal year. So I have put in place 
and the Army is going to conduct audits of the financials of 
Arlington National Cemetery.
    Senator Brown. One of the things that I am trying to get my 
hands around, I think everybody up here, you could sense the 
frustration. So you are a family member of a fallen soldier. 
You go and you go to the burial, obviously, and then you call 
up your people who weren't able to make it to the funeral and 
say, yes, Johnny is in Section 27, row whatever. Here is where 
he is at. So by going and doing these independent audits and 
determining and matching them, internal maps that they use to 
bury or rebury, we found, you found, and the IG found that 
there are problems.
    I am trying to get my arms around, so now the fact that we 
actually know that there is a problem--I get it. There is a 
problem. I am the second new kid here. I am not the bottom 
anymore, but pretty close to it. But I understand that you are 
new. I understand that there are other people who aren't new 
and you have a task. So one of the things I want to know is 
what tools and resources do you need from me and this 
Subcommittee and us as a Congress so you can address this very 
serious issue.
    How can we convey--how can I convey to the people back home 
in Massachusetts that, in fact, when those loved ones go to 
that particular plot, that their son or daughter is buried 
there? So I guess my question is, how do they verify? They say 
they have this triple or four-way mechanism to do it. Have they 
actually had to dig up bodies to determine whether they are, in 
fact, there? Is that something that they have done, do you 
know?
    Ms. Condon. Sir, in my tenure, we have not dug up anything, 
but let me give you an example of what we have done with the 
211 discrepancies that were in the IG report. In part of those 
discrepancies, the map was marked buried but there were no 
records that anyone was actually buried there. Mr. Hallinan, as 
the Acting Superintendent, and myself, we directed that we test 
sites and we dug in five locations where there was that error. 
Each and every one of those locations, there was not anyone 
buried there. So that was our sample to make sure that it was 
truly a map discrepancy error. It was a human error.
    We are currently in the process of testing ground-
penetrating radar, and we are going to use technology. We are 
at the data collection right now doing one of the three 
sections and we are determining what we are going to find from 
ground-penetrating radar. If that gives us the results that we 
need, we will eventually do that for the baseline 
accountability of the entire Cemetery.
    You asked what I need.
    Senator Brown. Yes.
    Ms. Condon. The bottom line, sir, is I really need time.
    Senator Brown. OK.
    Ms. Condon. I need time to put in the procedures to make 
sure that we validate, that we put in the technology, and right 
now, I can't tell you that I need more people or I need more 
money. But what I really need right now is time to fix the 
deficiencies that have been identified.
    Senator Brown. So you need us basically to kind of lay low 
for a little bit and give you some breathing space to kind of 
figure out what the problem is and tackle it?
    Ms. Condon. Yes, sir.
    Senator Brown. OK. That is fair.
    I will take one final question and then I will turn it back 
to the Chairman, and they did want to submit their testimony 
for the record and I suggested we wait until you get back.
    The thing that I am having another problem with is the 
whole IT situation and the amount of money that they have spent 
and we really have nothing to show for it. And I guess my 
question is, who was in charge of overseeing them? Like, who 
was in charge of overseeing Mr. Metzler and Mr. Higginbotham? 
Was anybody on this panel in charge of that?
    Ms. Tornblom. In terms of being the official supervisor of 
Mr. Metzler, that was the Commander of the Military District of 
Washington. In terms----
    Senator Brown. But in terms of approving contracts and 
reviewing these very technical IT contracts, who is responsible 
for that?
    Ms. Tornblom. Above Mr. Higginbotham and the contracting 
officers?
    Senator Brown. Yes.
    Ms. Tornblom. Well, that----
    Senator Brown. It seems to me that there has been a--I am 
trying to find out, I guess, in plain English, where is the 
breakdown? Where is the fact that they are spending upwards of 
$10 million, and at some point a buzzer or a red flag should 
have either gone off or raised that says, what? We have given 
them $10 million. They have 60,000 people in this system that 
doesn't work and they are misidentifying graves and they don't 
know where people are and the maps are wrong. I mean, at what 
point does someone say, we have really got to get a handle on 
this. Who is in charge of them? Is there somebody that we can, 
in fact, bring in again? Is it any of you people? I know you 
are new, but is it any of you guys?
    Ms. Tornblom. No, sir----
    Senator Brown. I want to go up the food chain, because it 
is not clicking for me.
    Ms. Tornblom. If I may speak to that, I think the answer, 
based on what we know now, would be the Army's Chief 
Information Officer and the staff under that person.
    Senator Brown. OK. Hold on a minute, if you would. I would 
suggest that if we want to continue on, we get those folks in 
here if they are the ones responsible.
    Ms. Tornblom. No, I am sorry. In the future, they would be 
responsible.
    Senator Brown. Well, who was responsible back then, then, 
when those two were in charge?
    Ms. Tornblom. Well, as we have said, oversight was 
fragmented. We did not have clear oversight of some of the 
Cemetery's functions.
    Senator Brown. Yes, who is ``we''? Like, who is----
    Ms. Tornblom. Anyone, sir.
    Senator Brown. Anyone?
    Ms. Tornblom. Right.
    Senator Brown. So they didn't have a boss? They didn't have 
people that they reported to that approved these contracts?
    Ms. Tornblom. I think the problem is they had too many 
bosses. They had too many bosses, sir. That was the problem.
    If I might say a little more, in the development of the 
TCMS, we worked, as Mr. Metzler said, for a couple of years 
with the Office of Management and Budget, not just the budget 
side, but their Office of Information and Regulatory Affairs, 
whom we understood, and I still understand to have some 
expertise in IT matters. It is clear now we relied too much on 
their involvement in the discussions, because they weren't 
really, I think, in a position to identify these technical 
problems.
    One of the things that I would do different in retrospect, 
and I did, is I would have called in the Army IT experts. But 
it wasn't until over a year ago, a little over a year ago when 
these inspections began that it became clear to me how bad the 
situation was.
    Senator Brown. Madam Chairman, I have asked a whole host of 
questions and I hope we can maybe, in your inquiry, we can find 
out, like, the next level, because I seem to be kind of getting 
the old ``boogie-woogie'' here, the old, no one is in charge, 
or too many people are in charge. Someone is in charge. I am in 
the military. I know who my commander is. I know who is in 
charge.
    Ms. Condon. Sir, I know who is in charge today.
    Senator Brown. I know you do. Thank you. And I have more 
confidence that you are here, and I appreciate it, because 
there is going to be a lot of pressure on you to deliver. And 
like I said, whatever you need from the Chairman and me and our 
colleagues, we need to know, because there was a clear 
breakdown of communication. It was, like, oh, let us just hide 
it. They won't know about it. Well, we know about it and now we 
are embarrassed. The whole country is embarrassed. It is 
embarrassing.
    So, Madam Chairman, with that, I have to head off to 
another hearing.
    Senator McCaskill. [Presiding.] Thank you.
    Senator Brown. But thank you for your leadership on this.
    Senator McCaskill. Thank you, Senator Brown.
    Mr. Harrington, let me start with you. I am a little 
worried we haven't received the report.
    Mr. Harrington. Ma'am, I apologize----
    Senator McCaskill. Where is the report?
    Mr. Harrington. The report is on its way to you right now, 
ma'am. It should be here right now. I apologize if it has been 
delayed, but it was on its way when I left my office this 
morning.
    Senator McCaskill. This is a report that Secretary McHugh 
ordered you to prepare, to conduct a review of all the 
contracts awarded at Arlington National Cemetery. It would have 
been great if we would have had it. We do have briefing slides 
that you prepared, so to the extent that I have had an 
opportunity to review those briefing slides, I want to talk 
about a couple of things that I know will be in the report when 
we eventually see it.
    One is a fact that I find astonishing, that the National 
Capital Region Contracting Center couldn't locate more than 
half of the contract files that your team requested. So we know 
there were no (CORs), contracting officer representatives. We 
know that there was no one with direct line command 
responsibility for these contracts. We know that the person who 
was entering into the contracts was the same person overseeing 
the contracts, who was the same one deciding about the 
contracts, who was basically submitting these contracts no 
questions asked and they were getting approved. And now we find 
that half of the contracts, you can't even locate the physical 
contracts.
    Can I get a response from you about that, Mr. Harrington, 
and----
    Mr. Harrington. Absolutely, ma'am. That is inexcusable. I 
have no excuse to offer you on that. That is absolutely shoddy 
contracting practice. It reflects all the way up the 
contracting chain, to include me. All I can express to you, 
ma'am, is that we have a series of corrective actions in 
process right now and we are going to do all we can as soon as 
we can, starting about 3 weeks ago, to not let that happen any 
further.
    Senator McCaskill. Ms. Tornblom, unfortunately, I don't 
want my questions to be confrontational to you, but you are the 
only one at the table that could have had an opportunity----
    Ms. Tornblom. That is correct.
    Senator McCaskill [continuing]. Had you asserted it, to 
bring some sanity to this contracting process that was clearly 
not working. Could you explain how Mr. Higginbotham was allowed 
to define requirements, select contractors, provide quality 
assurance evaluations, and certify that they were getting what 
was paid for, I mean, that one person was doing all of those 
things?
    Ms. Tornblom. I did not know and have not seen data today 
to actually verify that was the case. Mr. Higginbotham was, as 
I said earlier, the program manager for the IT effort. He was 
not the contracting officer, and----
    Senator McCaskill. Who was the contracting officer?
    Ms. Tornblom. Well, it depends on whether the Corps of 
Engineers or the Center for Contracting Excellence was handling 
the contract.
    Senator McCaskill. So----
    Ms. Tornblom. The contracting officer would have been in 
one of those organizations.
    Senator McCaskill. So in some instances, it would have been 
in your organization?
    Ms. Tornblom. No. I am in the Office of the Assistant 
Secretary.
    Senator McCaskill. OK. So do you to this day know who the 
contracting officers were on these contracts?
    Ms. Tornblom. I do on some of them because I have been in 
meetings where it was discussed.
    Senator McCaskill. Well, he was really operating as the 
contract officer, though. Nobody else was touching these 
things.
    Ms. Tornblom. I understand he was operating as a 
contracting officer's representative, which is probably, ma'am, 
what you meant.
    Senator McCaskill. That is exactly what I meant. He was 
operating as a COR, even though he was also the one who defined 
the requirements, selected the contractors, decided that no 
bids were necessary.
    Ms. Tornblom. He did not select the contractors. I 
understand, however, that he did make some recommendations to 
the Baltimore District on selection of some small business 
contractors.
    Senator McCaskill. Are you ever aware of a time that the 
contractor that he recommended did not get the work?
    Ms. Tornblom. After the fact, I have learned that. I did 
not know at the time.
    Senator McCaskill. OK. So it is a fact, for the record, 
that there was never a recommendation that he made for who 
should get a contract that wasn't accepted without question?
    Ms. Tornblom. I do not know the answer to that question, 
ma'am. It is not something that I was or am now knowledgeable 
about.
    Senator McCaskill. OK. Way back when, there was someone 
at--back in 2003 and 2004, there was a man by the name of Rory 
Smith----
    Ms. Tornblom. Yes.
    Senator McCaskill [continuing]. That was really in charge 
of the budget and had up until that point in time been the 
point of contact at Arlington National Cemetery for the budget. 
Am I correct?
    Ms. Tornblom. Yes.
    Senator McCaskill. And he got very frustrated at what he 
saw was a failure to perform and contracting processes that 
didn't comply with Army regulations, didn't comply with OMB 
regulations, and he tried to speak out. Are you aware of what 
happened to him after he spoke out?
    Ms. Tornblom. I am aware that he retired.
    Senator McCaskill. Are you aware that he was reprimanded 
and suspended----
    Ms. Tornblom. After the fact, I learned that.
    Senator McCaskill. And you brought him up, without name, in 
an email to OMB----
    Ms. Tornblom. I am sorry?
    Senator McCaskill [continuing]. And I would like to place 
into the record an email dated the April 22, 2004, an e-mail 
you sent to Bill McQuaid at OMB, subject, ``ANC Automation.'' 
``Bill, as we prepare for Tuesday's meeting with OMB and VA on 
the subject, I feel the need to let you know my views on some 
of this. I have been shocked by the pejorative language you 
have been using, at least in discussions with my staff, when 
discussing Arlington National Cemetery's automation efforts. 
Please be aware that I will respond if I hear words like 
`disaster,' `stunned,' `throwing money at contractors,' or `no 
product to show for it.' Recall that you and others at OMB have 
been briefed in the past on ANC's automation activities, and as 
I recall, OMB's automation expert then praised ANC for the job 
they were doing. We have listened and responded to past 
guidance on this subject. I believe you have been influenced 
inappropriately by one disgruntled ANC employee who is trying 
to stir up controversy to retaliate against ANC managers who he 
has disagreements. OMB needs to remain aloof from such internal 
personal matters. There is a long history here that I do not 
intend to put in writing. We welcome OMB's interest in the 
Cemetery and looking forward to how you think we can improve 
the Cemetery's automation efforts. Enough said. Claudia.''
    So disaster, stunned, throwing money at contractors, no 
product to show for it, right on the money.
    Ms. Tornblom. It is clear now that Mr. Smith was correct 
about those things. If you read that message carefully, you 
will see that I was ask--I was telling Mr. McQuaid to stop 
haranguing my staff with inflammatory language. That message 
was not intended to deal with the substance of the issues.
    Senator McCaskill. Well, but you go on to say that OMB has 
said that--that you praised the job they are doing. You are 
basically saying--I mean, I think the context is clear if you 
read the entire email, Ms. Tornblom. You are basically saying, 
get off our back. You said it was OK. We don't want to hear 
that it is not working. We don't want to hear that you are 
stunned. We don't want to hear that it looks like you are 
throwing money and not getting anything in return. And that is 
exactly what was going on. Did you ever sit down and talk to 
Mr. Smith yourself?
    Ms. Tornblom. Mr. Smith and I had a professional working 
relationship. We interacted regularly over a period of many 
years. We had many discussions on different aspects of the 
Cemetery's program. We did not always agree.
    Senator McCaskill. Did he tell you that nothing was getting 
done on these hundreds and thousands of dollars that were going 
out the door? I mean, clearly, he was trying to get someone's 
attention. It is not like somebody like Mr. Smith to jump the 
chain. Everybody knows what happens in the military when you 
jump the chain. He was jumping the chain, and the reason he was 
jumping the chain is he saw firsthand what was going on, and 
for some reason, nobody would listen to him. And here we are, 7 
years later, and he was right spot on. I am stunned. It is a 
disaster. We were throwing money at contractors. And we 
absolutely have no product to show for it.
    But looking back on it, would you have handled it 
differently now, knowing what you know, Ms. Tornblom.
    Ms. Tornblom. Knowing what I know now, absolutely, ma'am.
    Senator McCaskill. And how can we be sure that this is not 
happening somewhere else? Is there someone else out there in 
government that is trying not to be a whistleblower and go to 
the press, that is trying to get the attention of the people 
who are in a position to do something about this? You were in a 
position to do something. And what did he get? He got suspended 
and reprimanded.
    Ms. Tornblom. I had no role in that, ma'am.
    Senator McCaskill. Well, it is----
    Ms. Tornblom. Nor no knowledge until after the fact.
    Senator McCaskill. This is one nugget out of a long 
scenario of catastrophic incompetence. I mean, this is just one 
nugget. But it is one that you intersected with, and in 
fairness, I thought that you should have an opportunity to look 
at this in context and exactly say, now if this were to happen 
today, if OMB were to say to you for some area that you are 
supervising--even though you didn't have complete supervision, 
you had partial supervision--if OMB were to use these kinds of 
language with you today, how would you handle it differently?
    Ms. Tornblom. If Mr. Smith had come to me and said, I have 
evidence that contracts are being mismanaged and that records 
are not being kept and that, basically, Army regulations are 
being violated, I would have acted. Nothing that clear was ever 
said to me. I expect the people I work with to follow Army 
regulations and policies, whether it is contracting, financial 
management, human resources, or in some other field.
    Senator McCaskill. So you assumed that Mr. Metzler and Mr. 
Higginbotham were following policy and that Mr. Smith was just 
going rogue?
    Ms. Tornblom. I have records of a number of conversations 
with Mr. Smith about things that he was unhappy with that Mr. 
Higginbotham was doing. In some cases, I agreed with Mr. Smith 
and supported him and took action almost immediately. In other 
cases, I looked into it and found out some facts and ended up 
disagreeing with him.
    Senator McCaskill. Was there ever a time that you lost 
confidence in the leadership at the Arlington National 
Cemetery?
    Ms. Tornblom. Over the last year, yes.
    Senator McCaskill. But before that, you had no problem with 
the leadership there?
    Ms. Tornblom. There are always issues, ma'am. There are 
always disagreements and issues.
    Senator McCaskill. But you didn't think they rose to the 
level of you getting out of your niche and trying to grab 
people by the neckties or by the cardigan sweaters or whatever 
you have to grab them by and say, we have to sit down. We have 
a real problem at Arlington.
    Ms. Tornblom. I was not aware of most of the things that--
any of the things that have been revealed over the last year in 
the media, except that I knew, as we all knew, that there were 
problems with the burial records. I understood those to be 
primarily historical problems and paperwork issues until the 
revelations of the last year.
    Senator McCaskill. And how did you become aware of burial 
problems?
    Ms. Tornblom. I believe the first one I became aware of was 
when Salon.com released a story about a grave in Section 68 
where--that did not have a marker appropriately.
    Senator McCaskill. OK. So you first became aware by someone 
at the Cemetery informing someone in the media?
    Ms. Tornblom. That is correct.
    Senator McCaskill. OK. Mr. Harrington, when I reviewed the 
slides, and this is also for you, Ms. Condon, it is clear to 
me--I am putting my auditor hat on now--that there is a whole 
lot about the BOSS system that can easily be transferred over 
to Arlington National Cemetery. The notion that you can't use 
an underlying successful system for keeping track of gravesites 
because it doesn't include the kind of scheduling needs you 
have is one of those that kind of go, well, that is fixable. I 
mean, with all due respect, what we are asking to automate here 
is not complicated.
    I look at the kind of IT systems, Mr. Harrington, that you 
have responsibility over. I look at what we can do in our Army, 
whether it is the utilization of drones, whether it is the 
identification of very complex cost points. I look at the 
capability we have within the Army, and then I look at this and 
it is, frankly, jaw-dropping that we are actually messing 
around and saying that we have to go create a new system after 
we have spent all this money.
    And what worried me about your slides, Mr. Harrington, it 
appeared to me that we are going down that road instead of 
going, wait a minute. We should have adopted BOSS in the first 
place. We should have made sure that we utilized a system that 
had already been developed by government employees without 
excessive contractor costs, that was working, and I guess what 
I need to hear from you is that Arlington National Cemetery is 
going to use BOSS.
    Mr. Harrington. Ma'am----
    Ms. Condon. Excuse me. Could I take that question?
    Senator McCaskill. Yes, you may, and we will let Mr. 
Harrington add anything to it.
    Ms. Condon. Senator Brown asked me a similar question when 
you were----
    Senator McCaskill. Gone.
    Ms. Condon [continuing]. Out to vote. As Mr. Pat Hallinan 
from the Veterans Administration is the Acting Superintendent 
with me. He is my partner----
    Senator McCaskill. Correct.
    Ms. Condon [continuing]. To fix Arlington. And, one of the 
things that--I have a dedicated, an IT review, as well, and one 
of the things we are looking at is the BOSS system from VA 
because it works from VA. In having Mr. Hallinan's expertise of 
running all 120 cemeteries before he was the Acting 
Superintendent, we are going to look at the BOSS system as can 
we modify that, as well as looking at what was done in previous 
contracts and to see if there were some deliverables that we 
can also use in that.
    Senator McCaskill. Mr. Harrington, the slides gave me the 
impression that you were going to continue down the road of 
developing--and maybe I just misread the slides, because your 
guys' Power Point slides don't speak English. They are acronym-
heavy and they are very much in the language of, I call it 
Pentagonese.
    Mr. Harrington. Yes, ma'am.
    Senator McCaskill. And so--but from what I could tell from 
looking at the slides, since I haven't seen the report, it 
looked like you were headed down a road of developing 
completely new software for Arlington National Cemetery.
    Mr. Harrington. Well, Madam Chairman, I will tell you that 
we are assessing that right now. We have been meeting with Ms. 
Condon and her staff. If we have contract actions that are 
continuing that are inappropriate, we will stop them. The 
leadership in the Contracting Center of Excellence, the 
leadership in the Corps of Engineers, we have had the meetings 
with Ms. Condon so that those functional requirements that are 
unique to Arlington National Cemetery that can be implemented 
in the VA system are recognized. So our intent is to continue 
to assess those contract actions.
    And frankly, ma'am, the contracting community had a role to 
play in this all the way through and we think we need to be 
more disciplined in our interactions with the requirements 
generation individuals----
    Senator McCaskill. Right.
    Mr. Harrington [continuing]. So that we help alert and 
raise the red flag when we see an action that is being taken 
that really seems to have no end to it.
    So that is our role, ma'am. We will continue to engage, and 
we have worked with Ms. Condon and her staff, with the 
Contracting Center of Excellence and the Corps of Engineers, 
and we will look, and Ms. Condon, I know, has already 
established a policy that those two activities will be the 
primary contracting activities, and were there any other 
requirements surfacing, then it would take her waiver to 
exercise a contract action in another location. So we think we 
have the focus on the right two activities and those contracts 
that are in force right now that do not need to be continued, 
we will stop those.
    Senator McCaskill. Are there any other orphans out there 
besides Arlington National Cemetery? Clearly, what had happened 
here--I think Secretary McHugh basically testified to this--
that it was a satellite, and because it had multiple reports, 
no one took full ownership. And if you don't have full 
ownership, then you can't take full blame if it goes badly. 
Therefore, you are not so motivated.
    I mean, I am not casting aspersions toward you, Ms. 
Tornblom, but it is very hard for me to be completely mad at 
you because there are four or five other people that could 
easily have done the same thing I asked that you would have 
done. And because there wasn't one person whose head was going 
to roll, nobody's heads roll. It is the old finger pointing.
    Are there any other orphans out there that you are aware of 
that don't have a direct report, that there is not going to be 
somebody who will be blamed if this kind of gross mismanagement 
were to occur another place in the Army?
    Mr. Harrington. Madam Chairman, I am not aware, but I would 
say to you that I am sure we will happen upon them. It is 
incumbent upon us in our effort to expand our procurement 
management review process to assess those types of occurrences 
and then to stop them as immediately as we can and to ensure 
that the procurement chain, the contracting chain, which 
mirrors the command chain, is robust and understands its 
obligations statutorily to ensure this process is autonomous 
and pure.
    Senator McCaskill. It is my understanding that the Criminal 
Investigations Division of the Army is examining this. Is that 
correct, Mr. Harrington?
    Mr. Harrington. It is my understanding to that, also, Madam 
Chairman.
    Senator McCaskill. And that there have been numerous 
allegations--unfounded at this point, I can't say that there 
has been documented proof--but there are allegations out there 
of fraud. Is that correct?
    Mr. Harrington. Yes, there are, Madam Chairman.
    Senator McCaskill. So we have the whole bouquet.
    Mr. Harrington. Yes.
    Senator McCaskill. We have waste. We have abuse. And we 
have fraud. We have the trifecta. And we have it concerning a 
national treasure and that is very, very unfortunate.
    After we review the report, we will get back with you, Mr. 
Harrington----
    Mr. Harrington. Yes, ma'am.
    Senator McCaskill [continuing]. About the contracting 
deficiencies. I certainly would encourage you, to whatever 
extent you can prevail upon Army leadership, and frankly, this 
is something I need to take up with Secretary Gates, there 
needs to be a look around to see if there are any other 
Arlington National Cemetery scandals that could be hiding in a 
corner where there isn't clear line of command, there isn't 
clear line of authority, there is not clear line of 
accountability, and there is contracting gone wild.
    Mr. Harrington. Yes.
    Senator McCaskill. In fact, I think you can use this as a 
textbook to teach contracting people about the worst case 
scenario. Every document I would turn as I would read this, I 
would say, you have to be kidding me. And then I would turn 
another document and I would say, you have to be kidding me, 
especially for how long it went on. I don't think they were as 
forthcoming as they should have been, if they knew these 
problems were serious and significant for a long period of 
time.
    Mr. Harrington. Yes.
    Senator McCaskill. Is there anything else that any of you 
would like to add for the record that you haven't been asked by 
either Senator Brown or myself?
    Mr. Harrington. No, Madam Chairman, not from me.
    Senator McCaskill. Ms. Tornblom.
    Ms. Tornblom. No.
    Ms. Condon. Ma'am, as of June 10, you have your one 
individual----
    Senator McCaskill. I know I do, and I am looking at her.
    Ms. Condon [continuing]. Who is responsible, and you are 
looking at her.
    Senator McCaskill. And you have direct report to the 
Secretary.
    Ms. Condon. I have direct report to the Secretary of the 
Army, and I will, any questions that this Subcommittee has, I 
will come back with progress reports. But as Senator Brown 
asked me what I needed from Congress, and what I really need, 
ma'am, is time. I need time to fix the deficiencies that we 
have found and any that I may find from now. So you have my 
promise that I will come back.
    Senator McCaskill. Well, we will give you time, but we 
don't want it to get slowed down by bureaucratic nonsense----
    Ms. Condon. You have my promise that will not happen.
    Senator McCaskill. And now I just want you to know, Ms. 
Condon, I am feeling old, because I feel like in some ways I 
have been here 10 minutes, but this is the second time I have 
run into you----
    Ms. Condon. Yes, ma'am, it is.
    Senator McCaskill [continuing]. Because when I first 
arrived, I was trying to figure out how Army Materiel Command 
at Belvoir could be a temporary building, and I remember 
traveling out there somewhat unannounced to check out that very 
large permanent temporary building, and I recall that you were 
the one that had to answer very difficult questions from me at 
that point.
    Ms. Condon. Mm-hmm.
    Senator McCaskill. Are you getting the short straw every 
time? Are they telling you that you have to go have Senator 
McCaskill yell at you? Is that what is happening? [Laughter.]
    Ms. Condon. Ma'am, I wanted to know if my mother called you 
ahead of time.
    Senator McCaskill. There you go.
    Ms. Condon. Because she has the same questions. [Laughter.]
    Senator McCaskill. There you go.
    I appreciate all of you being here today. We will have more 
questions for the record. We will stay on this. We have more 
information that we continue to gather, and we probably have 
other witnesses that we may call in before this is said and 
done. Please keep us posted on the progress.
    Ms. Condon. Will do, ma'am.
    Senator McCaskill. I particularly would like to know 
section by section in the Cemetery when you are assured that 
you have identified all the mistakes that exist. There is no 
way, frankly, there is no way that Mr. Metzler's assertion that 
we know the problems that are there is true. I think you 
would--wouldn't you acknowledge that?
    Ms. Condon. Ma'am, Senator Brown asked me that same 
question and we have found other map discrepancies, in the 
tenure that I have been there.
    Senator McCaskill. So as you clear sections and you feel 
confident that the problems that exist there, we would like to 
be apprised of that progress as it occurs.
    Ms. Condon. Yes, ma'am.
    Senator McCaskill. OK. Thank you all.
    This hearing is adjourned.
    [Whereupon, at 12:48 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T8406.001

[GRAPHIC] [TIFF OMITTED] T8406.002

[GRAPHIC] [TIFF OMITTED] T8406.003

[GRAPHIC] [TIFF OMITTED] T8406.004

[GRAPHIC] [TIFF OMITTED] T8406.005

[GRAPHIC] [TIFF OMITTED] T8406.006

[GRAPHIC] [TIFF OMITTED] T8406.007

[GRAPHIC] [TIFF OMITTED] T8406.008

[GRAPHIC] [TIFF OMITTED] T8406.009

[GRAPHIC] [TIFF OMITTED] T8406.010

[GRAPHIC] [TIFF OMITTED] T8406.011

[GRAPHIC] [TIFF OMITTED] T8406.012

[GRAPHIC] [TIFF OMITTED] T8406.013

[GRAPHIC] [TIFF OMITTED] T8406.014

[GRAPHIC] [TIFF OMITTED] T8406.015

[GRAPHIC] [TIFF OMITTED] T8406.016

[GRAPHIC] [TIFF OMITTED] T8406.017

[GRAPHIC] [TIFF OMITTED] T8406.018

[GRAPHIC] [TIFF OMITTED] T8406.019

[GRAPHIC] [TIFF OMITTED] T8406.020

[GRAPHIC] [TIFF OMITTED] T8406.021

[GRAPHIC] [TIFF OMITTED] T8406.022

[GRAPHIC] [TIFF OMITTED] T8406.023

[GRAPHIC] [TIFF OMITTED] T8406.024

[GRAPHIC] [TIFF OMITTED] T8406.025

[GRAPHIC] [TIFF OMITTED] T8406.026

[GRAPHIC] [TIFF OMITTED] T8406.027

[GRAPHIC] [TIFF OMITTED] T8406.028

[GRAPHIC] [TIFF OMITTED] T8406.029

[GRAPHIC] [TIFF OMITTED] T8406.030

[GRAPHIC] [TIFF OMITTED] T8406.031

[GRAPHIC] [TIFF OMITTED] T8406.063

[GRAPHIC] [TIFF OMITTED] T8406.064

[GRAPHIC] [TIFF OMITTED] T8406.065

[GRAPHIC] [TIFF OMITTED] T8406.066

[GRAPHIC] [TIFF OMITTED] T8406.067

[GRAPHIC] [TIFF OMITTED] T8406.068

[GRAPHIC] [TIFF OMITTED] T8406.036

[GRAPHIC] [TIFF OMITTED] T8406.037

[GRAPHIC] [TIFF OMITTED] T8406.038

[GRAPHIC] [TIFF OMITTED] T8406.039

[GRAPHIC] [TIFF OMITTED] T8406.040

[GRAPHIC] [TIFF OMITTED] T8406.041

[GRAPHIC] [TIFF OMITTED] T8406.042

[GRAPHIC] [TIFF OMITTED] T8406.043

[GRAPHIC] [TIFF OMITTED] T8406.044

[GRAPHIC] [TIFF OMITTED] T8406.045

[GRAPHIC] [TIFF OMITTED] T8406.046

[GRAPHIC] [TIFF OMITTED] T8406.047

[GRAPHIC] [TIFF OMITTED] T8406.048

[GRAPHIC] [TIFF OMITTED] T8406.049

[GRAPHIC] [TIFF OMITTED] T8406.050

[GRAPHIC] [TIFF OMITTED] T8406.051

[GRAPHIC] [TIFF OMITTED] T8406.052

[GRAPHIC] [TIFF OMITTED] T8406.053

[GRAPHIC] [TIFF OMITTED] T8406.054

[GRAPHIC] [TIFF OMITTED] T8406.055

[GRAPHIC] [TIFF OMITTED] T8406.056

[GRAPHIC] [TIFF OMITTED] T8406.057

[GRAPHIC] [TIFF OMITTED] T8406.058

[GRAPHIC] [TIFF OMITTED] T8406.059

[GRAPHIC] [TIFF OMITTED] T8406.069

[GRAPHIC] [TIFF OMITTED] T8406.070

[GRAPHIC] [TIFF OMITTED] T8406.071

[GRAPHIC] [TIFF OMITTED] T8406.072

[GRAPHIC] [TIFF OMITTED] T8406.073

[GRAPHIC] [TIFF OMITTED] T8406.074

[GRAPHIC] [TIFF OMITTED] T8406.075

[GRAPHIC] [TIFF OMITTED] T8406.076

[GRAPHIC] [TIFF OMITTED] T8406.077

[GRAPHIC] [TIFF OMITTED] T8406.078

[GRAPHIC] [TIFF OMITTED] T8406.079

[GRAPHIC] [TIFF OMITTED] T8406.080

[GRAPHIC] [TIFF OMITTED] T8406.081

[GRAPHIC] [TIFF OMITTED] T8406.082

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
